<html>
<title> - CHAD AND THE CENTRAL AFRICAN REPUBLIC: THE REGIONAL IMPACT OF THE DARFUR CRISIS</title>
<body><pre>[Senate Hearing 110-236]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-236
 
   CHAD AND THE CENTRAL AFRICAN REPUBLIC: THE REGIONAL IMPACT OF THE 
                             DARFUR CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                                     
                    U.S. GOVERNMENT PRINTING OFFICE
40-160                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman

BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Bacon, Kenneth H., president, Refugees International, Washington, 
  DC.............................................................    16
    Prepared statement...........................................    19
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Prendergast, John, senior advisor, International Crisis Group, 
  Washington, DC.................................................    23
    Prepared statement...........................................    26
Swan, James, Deputy Assistant Secretary of State for African 
  Affairs, Department of State for African Affairs, Department of 
  State, Washington, DC..........................................     4
    Prepared statement...........................................     7
    Responses to questions submitted by Senator Richard G. Lugar.    38

                                 (iii)

  


   CHAD AND THE CENTRAL AFRICAN REPUBLIC: THE REGIONAL IMPACT OF THE 
                             DARFUR CRISIS

                              ----------                              


                        TUESDAY, MARCH 20, 2007

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold (chairman of the subcommittee) presiding.
    Present: Senators Feingold and Obama.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. The committee will come to order, and I 
want to thank everyone for being here. On behalf of the Senate 
Foreign Relations Subcommittee on African Affairs, I welcome 
all of you to the second hearing of this subcommittee in the 
110th Congress.
    I want to especially express my gratitude to my colleague, 
Senator Sununu, who I expect will be here at some point, who 
has already demonstrated a dedicated commitment to Africa in 
his first couple of months as ranking member of this 
subcommittee.
    By now we are all aware of the tragedy unfolding in the 
Darfur region of Sudan. More than 2\1/2\ years ago, my 
colleagues and I were among the first to condemn the atrocities 
in Darfur as genocide, and since then Congress has appropriated 
more than $1.5 billion to ease the suffering of innocent 
Darfurians. The U.S. Government and many other concerned 
states, acting alone as well as through the United Nations and 
the African Union, have intervened with diplomatic, 
humanitarian, human rights, and development assistance efforts 
driven in large part by effective grassroots activism, to which 
I give great credit.
    Despite these ongoing and well-intentioned efforts, 
however, today in Darfur millions remain displaced and at least 
200,000 people are dead. Humanitarian space continues to 
shrink, and peacekeepers, aid workers, and human rights actors 
are increasingly the target of violent crimes. Perhaps most 
worrisome is the Sudanese Government's growing denial of the 
crimes and crisis in the west.
    This morning I woke up and turned on the Today Show and 
watched Sudanese President Bashir claim that rape ``doesn't 
exist; we don't have it.'' He went on to allege that the United 
States was fabricating evidence of atrocities in Darfur just as 
it had before invading Iraq, implying that the Americans have 
ulterior motives in seeking to end the violence in Darfur.
    In the meantime, we are seeing the brutal tactics of Darfur 
and their tragic consequences transferred across the porous 
border into eastern Chad and the Central African Republic. Even 
before the recent outbreak of hostilities in the north, the 
Central African Republic was suffering extreme poverty and 
deemed by the U.N.'s Office of Humanitarian Assistance as ``one 
of the world's most neglected emergencies.''
    Similarly, I visited the Iriba refugee camp in eastern Chad 
in January 2005, and was struck even then by the rising inflow 
of Darfurian refugees. During that same visit to Chad, I also 
noted the growing disillusionment with President Deby's 
government and the lack of democratic space for political 
change.
    My conclusion from this trip was that Chadians outside the 
government were preoccupied with the problems of poverty and 
rural development, but it worried me that this was not a major 
concern of the Government of Chad, nor was it at the top tier 
of the United States-Chad bilateral relationship. Political 
unrest in Chad has sparked violence that has displaced more 
than 100,000 citizens of Chad, adding to refugees from Sudan 
and the Central African Republic in crowded camps, and it has 
created a downward spiral of security in humanitarian 
conditions throughout the region.
    Last month Senator Sununu and I introduced a resolution to 
highlight the destabilizing impact of the ongoing violence in 
the Darfur region of Sudan on neighboring Chad and the Central 
African Republic. Each of these countries is struggling to cope 
with security and humanitarian challenges of their own, but the 
spillover of rebels, weapons, and brutal tactics, along with 
the flood of refugees and internally displaced persons that 
such violence creates across Sudan's western border, has 
exacerbated these emergencies.
    As long as these conflicts persist, the crisis in Darfur 
will be prolonged, and vice versa. No effort to restore peace 
and stability to this bloody region in the heart of Africa can 
succeed unless we commit ourselves to a coordinated, 
comprehensive approach. Tribal rivalries are not constrained by 
national boundaries, so neither should we pursue localized 
solutions to what has become in fact a regional conflict.
    That was the motivation for our bipartisan resolution 
calling on the U.S. Government and the international community 
to promptly develop, fund, and implement a comprehensive 
regional strategy to protect civilians, facilitate humanitarian 
operations, contain and reduce violence, and contribute to 
conditions for sustainable peace in eastern Chad, the Central 
African Republic, and western Sudan. Today this hearing will 
explore the need for an integrated approach to peace in this 
region.
    With that said, let me introduce our two distinguished 
panels. On our first panel we have Deputy Assistant Secretary 
of State for African Affairs, Mr. Jim Swan. In addition to 
having previously served as Director of Analysis for Africa in 
the Bureau of Intelligence and Research, Mr. Swan has devoted 
most of his professional life as a career Foreign Service 
officer to various African countries facing complex political 
transitions.
    I hope he'll be able to draw upon this experience to give 
us some insights into the current situations in Chad and the 
Central African Republic. We look forward to a review of recent 
developments in U.S. policy in this region, including the 
administration's priorities as well as its strategies and 
allocated resources toward achieving these ends. Mr. Swan, I 
would also appreciate your assessment of the impact you believe 
the United States is having in each of these countries in 
addressing both the immediate needs and longstanding grievances 
of the affected populations.
    Following Mr. Swan, on our second panel we will hear 
testimony from two respected individuals representing the 
humanitarian and academic communities, respectively. Both Ken 
Bacon and John Prendergast have firsthand experience with these 
conflicts and their victims, and both have written extensively 
and even testified before Congress on these and related foreign 
policy issues.
    Ken Bacon is the president of Refugees International, an 
advocacy organization based in Washington, but with operations 
that serve forgotten or neglected populations in crisis all 
over the world, including Chad and the Central African 
Republic. To learn more about the needs of internally displaced 
people and what can be done to reduce attacks on civilians in 
these areas, Refugees International recently sent an assessment 
mission to visit IDP camps in eastern Chad as well as the 
extremely isolated and nearly inaccessible conflict zones in 
northeast and northwest CAR. We are fortunate to be privy to 
this on-the-ground update, and I hope Mr. Bacon will also share 
his perspective on both the successes and failures of existing 
efforts to ease and resolve the conflicts in this troubled 
region and what more needs to be done.
    John Prendergast has worked on crisis issues in Africa for 
the past two decades, and is currently a senior advisor to the 
International Crisis Group and cofounder of the recently 
launched ENOUGH campaign that aims to end ongoing crimes 
against humanity and prevent future mass atrocities. We look to 
you, Mr. Prendergast, for analysis of the internal political 
situations in Chad and the Central African Republic, as well as 
the regional dynamics that bind these conflicts with the Darfur 
crisis. Additionally, the subcommittee would appreciate your 
insights into what you believe is needed at the national, 
regional, and international levels in the short, medium, and 
long term, to ease and resolve the interrelated challenges of 
this troubled region.
    We're very glad that you're all here today, and we 
appreciate your willingness to testify. Thank you and welcome. 
The information and insights you share with us this morning 
will help my colleagues and myself better understand these 
complex conflicts and the role we can play in resolving them 
through a coordinated, comprehensive result.
    I will now start the testimony of Mr. Swan. When Senator 
Sununu arrives, we'll ask him to speak as the ranking member. 
Mr. Swan, would you proceed with your testimony?

 STATEMENT OF JAMES SWAN, DEPUTY ASSISTANT SECRETARY OF STATE 
    FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Swan. Good morning, Mr. Chairman, and thank you very 
much for the invitation to testify this morning on instability 
in Chad and the Central African Republic and their links to 
regional instability, particularly the ongoing crisis in 
Darfur.
    Before I begin, I would like also to acknowledge you, 
Senator, as well as your colleagues, Senators Sununu and Levin, 
for your introduction of a resolution calling for a 
comprehensive strategy to protect civilians, reduce violence, 
and contribute to a lasting peace in the region. Your efforts 
have brought attention to an oft-forgotten part of the world, 
and for this we are appreciative.
    I will be restricting my remarks today to Chad and the 
Central African Republic, since I understand that the 
President's Special Envoy will be addressing you on Sudan in 
the coming weeks, but of course I do want to underscore the 
regional dimension of the issues that I will be addressing as 
well.
    I have some prepared testimony which, with your permission, 
Senator, I would like to introduce into the record.
    Senator Feingold. Without objection.
    Mr. Swan. Thank you, and I will summarize the key points of 
this paper.
    Chad and the Central African Republic have a long history 
of instability and war that can be attributed to a combination 
of domestic and regional factors. Neither country has a record 
of good governance, rule of law, or democracy, and this makes 
both countries vulnerable to external interference, and it 
limits their options for peaceful resolution of internal 
problems. Over time, each of these countries has both generated 
and hosted substantial numbers of refugees, including from each 
other.
    U.S. priorities in Chad and CAR include limiting the 
regional impact of the Darfur conflict, fostering stability, 
protecting civilians, refugees, internally displaced persons, 
and humanitarian workers, and promoting political reform and 
good governance.
    Since you have already in your remarks, Senator, described 
briefly the general context of the situation, I'd like to skip 
ahead and focus primarily on the U.S. response to current 
developments. Thank you, sir.
    Overall, the United States Government is taking a holistic 
approach to addressing stability and security in Chad and CAR, 
an approach that takes into account both regional and domestic 
dynamics. I'd like to start first with the issue of regional 
stability, and on this our primary focus at this point is in 
supporting a robust United Nations peacekeeping operation for 
Chad and the Central African Republic that would focus on both 
protecting civilians and also deterring cross-border attacks.
    We believe that the presence of such a mission, and 
particularly the execution of its civilian protection and 
monitoring mission, would lead to a reduction in violence. Our 
focus on a U.N. mission also underscores our commitment to work 
multilaterally and with key Western and African partners as we 
try to address the situations in Chad and CAR.
    With respect to the proposed U.N. military or police 
peacekeeping operation, we have consistently encouraged the 
Chadians to accept such a mission, and we were disappointed by 
the Chadian Government's recent indications of concern over the 
military component of the proposed mission and specifically the 
deployment of an advance mission. We are continuing to engage 
President Deby to convince him to accept a military force as 
part of this package.
    We have also consulted with other key allies and 
influential players, including France, the United Kingdom, NATO 
partners, and others about how to obtain Chadian acceptance for 
the peacekeeping operation, and we're going to continue to work 
with both our African and our Western partners on this issue.
    With respect to the Central African Republic, President 
Bozize has already announced his willingness to accept a robust 
peacekeeping force in northeastern Chad. With respect to this 
force, we are committed to generating the most robust force 
possible for the operation, and we have already approached 
several governments with requests for troop contributions.
    We recognize, however, that with already some 100,000 
international peacekeeping troops currently deployed worldwide, 
that force generation for the Chad/CAR mission is going to be a 
challenge. Therefore, if it becomes necessary, we are willing 
to consider alternative options, including those that might 
involve a slight decrease in the number of troops in exchange 
for greater logistical support and equipment, including 
helicopters, that would keep the force agile and still 
muscular.
    So the core of our focus now in terms of the regional 
stability element of our policy is proceeding with the 
deployment of this peacekeeping operation. A second key element 
of our policy is promotion of democracy and good governance. 
This is obviously, and as you indicated, Senator, in your 
opening remarks, inextricably linked to the stability questions 
because we recognize that poor governance is a major cause of 
Chadian instability.
    Consequently, we have emphasized the importance of 
democratic reform, respect for human rights, dialog, and 
transparent governance in our communications with Chadian 
officials at all levels. This message has been delivered 
directly by Secretary Rice to President Deby in writing. It's 
delivered on a near-daily basis in our working level 
interactions with Chadian officials in N'Djamena and in our 
contacts with their diplomatic representation here. We have 
also consulted with our European Union, French, and U.N. 
colleagues on their programs to reform the electoral process, 
and we look forward to funding a census project that would 
complement their efforts.
    Overall, our human rights and democracy policy in Chad has 
focused on strengthening the institutions that are necessary 
for stable democracy, such as effective civil society and a 
free, fair, and professional press. Among other programs and 
activities designed to protect human rights, the United States 
supports legal assistance for victims of human rights abuses 
through local human rights NGOs.
    With regard to good governance, including transparent 
collection and expenditure of the government's oil revenues, 
the Treasury Department has provided technical assistance to 
Chad's oil revenue management oversight body, and we continue 
to urge the Chadian Government to live up to its commitment to 
spend 70 percent of its budget on priority sectors for poverty 
reduction.
    Another program that has cross-cutting regional stability 
and democratization impact is the Trans Sahara Counter 
Terrorism Partnership. This is an interagency initiative in 
which Chad participates, through which we seek not only to 
strengthen regional counterterrorism capabilities and enhance 
cooperation among the region's security forces, but also to 
promote democratic governance as a means to discredit terrorist 
ideology.
    Turning to the CAR and its governance challenges, poor 
governance here also is at the heart of instability in CAR, and 
as in Chad, we engage regularly with Central African Republic 
officials about the need for democratic reform, increased 
respect for human rights, and good governance. We are 
encouraged by the CAR's upcoming political dialog under the 
auspices of the Central African Republic's Council of Wise Men, 
a group of respected officials tasked with mediating Central 
African Republic's political disputes.
    Our efforts overall to support democracy and human rights 
in the Central African Republic have focused on strengthening 
the free media and the Parliament, which is composed largely of 
inexperienced legislators and remains susceptible to executive 
branch pressure.
    Let me turn now to the third key element of our policy, in 
addition to regional stability and democracy governance, and 
that is responding to the humanitarian situation. The United 
Nations estimates there are some 230,000 Sudanese refugees in 
Chad, 20,000 Chadian refugees in Darfur/Sudan, and 50,000 
Central African Republic refugees in southern Chad. In addition 
to that, there are up to approximately 110,000 internally 
displaced persons in eastern Chad, and their numbers have 
doubled in the last 5 months, and many of them have suffered 
secondary displacement after their initial displacement.
    With respect to the CAR the United States estimates that a 
total of some 280,000 Central Africans have been displaced, 
most of these, some 212,000, internally displaced, but some 
20,000 refugees in Cameroon, and again the 50,000 refugees now 
in southern Chad.
    We too are very much concerned with an issue that you 
raised, that is, the shrinking humanitarian space for aid 
workers, attacks on civilians are widespread in both Chad and 
the Central African Republic, and we have had repeated 
opportunities to hear from humanitarian organizations of the 
difficulties that they are having operating, particularly in 
the Chadian environment.
    With respect to what the United States is doing on the 
humanitarian front, again I would first of all stress the 
essential nature of improved security to providing humanitarian 
relief to these populations. This is why again we believe that 
deployment of this peacekeeping operation will be critical not 
only to providing for monitoring of the border, but also and 
most essentially to protection of civilians.
    We continue to be the largest single humanitarian donor in 
the region. In Chad a concerted effort focused on Darfur 
refugees in the eastern part of the country in 2004 has brought 
conditions in what are now 12 refugee camps close to 
international humanitarian standards, despite extremely 
difficult logistical challenges in these areas. However, the 
assistance provided to some other refugee and displaced 
populations have not been as significant as that provided to 
these 12 camps.
    Overall, our humanitarian funding in fiscal year 2006 for 
Chad was approximately $74 million, and among the largest 
shares of this total were $45 million in support for refugee 
and IDP camps and some $24 million in emergency food 
assistance.
    In fiscal year 2006 in Central African Republic, the 
assistance in the humanitarian sector was approximately 
$900,000. We expect these numbers to increase significantly in 
fiscal year 2007. We are also very much encouraged that a 
number of international humanitarian organizations, 
nongovernmental organizations, have begun returning to Central 
African Republic and beginning to establish programs there.
    To look ahead at what we may be able to do additionally on 
the humanitarian side, in January and February of this year 
assessment teams from USAID traveled to conflict-affected areas 
in both Chad and CAR to assess conditions for IDPs, analyze 
humanitarian capacity, and determine potential program areas. 
These teams have made a number of recommendations about how to 
improve humanitarian assistance, including through improved 
donor coordination, prepositioning of essential relief 
supplies, expanding emergency water and sanitation 
interventions, and bolstering food aid programs, and we are now 
in the process of determining how to move ahead in using 
available resources to implement these recommendations.
    So, to conclude, the United States is committed to doing 
our full part to protect civilians in Chad and the Central 
African Republic and to mitigating factors that are related to 
regional instability. Both the proximate and the institutional 
causes of instability are complex, and are going to require 
that we work closely with the rest of the international 
community as well as with the governments of Chad and CAR 
themselves.
    I also would like to let you know that I personally will be 
traveling to CAR and Chad beginning next week, March 27 to 
April 2, and I look forward to following up directly on the 
issues that have been raised in this hearing and concerns that 
are presented by you, Senator, or by other panelists who 
present later today.
    Thank you, sir.
    [The prepared statement of Mr. Swan follows:]

Prepared Statement of James Swan, Deputy Assistant Secretary, Bureau of 
          African Affairs, Department of State, Washington, DC

    Thank you, Mr. Chairman and members of the subcommittee, for the 
opportunity to discuss instability in Chad and the Central African 
Republic, links to regional stability, particularly the ongoing 
horrific crisis in Darfur, and the administration's efforts to promote 
security in both countries. I want to acknowledge Senators Feingold, 
Sununu, and Levin for their introduction of a resolution calling for a 
comprehensive strategy to protect civilians, reduce violence, and 
contribute to a lasting peace in the region. Your efforts have brought 
attention to an oft-forgotten part of the world, and for this we are 
appreciative. I will restrict my remarks today to Chad and the Central 
African Republic, as I understand that the President's Special Envoy 
will be addressing you on Sudan in the next few weeks, but I do want to 
underscore the regional nature of many of the challenges we face.

                               BACKGROUND

    Chad and the Central African Republic (CAR), like many of their 
neighbors, have a long history of instability and war that can be 
attributed to a combination of domestic and regional factors. Neither 
country has a record of good governance, rule of law, or democracy, 
making both vulnerable to external interference and limiting options 
for peaceful resolution of internal problems. Over time, each has both 
generated and hosted substantial numbers of refugees, including from 
each other.
    The United States priorities in Chad and CAR include limiting the 
regional impact of the Darfur conflict, fostering stability, protecting 
civilians, refugees, internally displaced persons (IDPs), and 
humanitarian workers, and furthering transformational diplomacy by 
promoting political reform and good governance.
    Since achieving independence in 1960, Chad has been subject to 
several power struggles. The country suffered through an almost 
continuous civil war from 1965 to 1993, when current President Deby 
initiated a national reconciliation process. The current rebel 
movements, including the United Front for Change (FUC), the Union of 
Forces for Democracy and Development (UFDD), and the Rally of 
Democratic Forces (RAFD) gained strength in late 2005 and 2006, in part 
due to defections of high-ranking civil and military officers, 
including members of Deby's ethnic group. Many of these groups appear 
to enjoy support from the Government of Sudan. In recent months, Chad 
has also experienced a rise in intercommunal violence that is not 
directly related to the rebellion. However, the various causes of 
insecurity tend to become mutually reinforcing--something of a 
``perfect storm'' of violence.
    CAR also has a history of violence and unrest. It has experienced 
four coups, additional failed coup attempts, and many years of 
undemocratic rule since its independence in 1960. Rebels, including 
some members of the political opposition, emerged in the northwestern 
part of the country in late 2005. Still other groups with alleged links 
to Sudan took over four northeastern towns in October and November 
2006. After being defeated by government forces with French support, 
the northeastern rebels attacked again in early March 2007, but were 
quickly pushed back.
    The recent increase in violence in Chad has endangered the lives of 
civilians, who are subject to attack by rebel groups, government 
forces, and ethnic militias, and has reduced the number of secure 
humanitarian corridors. As a result, international and nongovernmental 
organizations (IOs and NGOs) have cut staff by approximately 50 
percent, limiting the ability of NGOs to provide non life-saving 
support activities, such as education, in refugee camps and to IDPs. At 
present staffing levels, the humanitarian community would be hard-
pressed to accommodate new IDP populations or new refugee inflows from 
Darfur. In CAR, which up until recently has not garnered much 
international attention, insecurity has limited the ability of 
humanitarian groups to travel to parts of the northwest and northeast 
in order to assess needs. Recent travelers to the region describe a 
grave humanitarian crisis.

                      FACTORS AFFECTING STABILITY

    Deficiencies in democracy, good governance, and the rule of law 
have contributed greatly to instability in Chad. The country's history 
of recurrent conflict has weakened the rule of law and undermined 
peaceful conflict resolution mechanisms. As a result, Chad is ill-
equipped to remain immune to spillover from regional conflicts.
    Chad and Sudan have a complex relationship in which national 
loyalties are often subordinate to tribal or clan loyalties or the 
competition for resources. In eastern Chad and in western Sudan, which 
were once part of the same ``kingdom,'' limited access to water and 
arable land leads to conflicts between pastoralists and 
agriculturalists on both sides of the border. Familial and ethnic ties 
can exacerbate economic tensions.
    Chadian rebels have a long history of using Sudan as a base for 
attacks into Chad, sometimes with Sudanese Government complicity. Both 
Chadian President Deby and his predecessor, Hissene Habre, assumed 
power through military campaigns based in Sudan, thus establishing 
enduring connections with Sudanese actors. President Deby continues to 
accuse the Government of Sudan of providing support to Chadian rebels.
    Tribal loyalty appears to be at the heart of Chadian support for 
Sudanese rebel groups, including those that have not signed the Darfur 
Peace Agreement. President Deby and many members of the Chadian elite 
belong to the Zaghawa tribe, which dominates some Darfur rebel groups, 
including the Justice and Equality Movement (JEM). This loyalty appears 
to work both ways, with JEM elements reportedly fighting alongside the 
Chadian military (ANT) against Chadian rebels.
    Interethnic fighting, which is indirectly related to the rebel 
activity, has increased considerably as well in eastern Chad. Communal 
tensions have grown in recent years due to conflict over land and 
natural resources, particularly water, in an area of environmental 
extremes. This rise in communal tensions, coupled with a security 
vacuum (due to the Chadian military's engagement with the Chadian 
rebels), has left local populations vulnerable to attacks by ethnic 
militias that engage in violence to settle scores, loot villages, and 
raid cattle and livestock. Some of the violence is perpetrated by 
Sudanese Janjaweed, but most seems to be conducted by Chadian Arabs. In 
response, several ethnic groups have formed self-defense militias, 
leading to a proliferation of weapons and exacerbating the cycle of 
violence. Even the security and neutrality of refugee camps risk being 
compromised.
    In Central African Republic, threats to stability include domestic 
factors such as a weak central government, widespread impunity amongst 
the country's armed forces, and several rebel movements, including the 
Popular Army for the Reconstruction of the Republic and Democracy 
(APRD), which operates in the northwestern part of the country, and the 
Union of Democratic Forces for Rally (UFDR), which has conducted 
attacks in the northeast.
    CAR President Bozize, who resided in Chad while in exile, has 
strong links to Chadian President Deby, who provides Bozize with armed 
guards and significant support. Throughout CAR, it appears that the 
country's rebels are linked with their Chadian counterparts. The rebels 
and general population in northwestern CAR do not appear to have direct 
ties to Sudan, while the population in northeastern CAR does have 
ethnic, familial, and commercial links to the Sudanese population 
residing across the border. While there is no irrefutable evidence that 
northeastern CAR rebels enjoy support from the Sudanese Government, 
there are reports that these rebels have operated out of, and been 
supplied through, Sudan, and President Bozize accuses the Government of 
Sudan of fueling instability in CAR. Furthermore, Chadian rebels have 
traversed northern CAR to attack N'djamena from bases in Sudan, and may 
do so again in the future. Most of CAR's territory is ungoverned space, 
which makes it extremely unstable and, therefore, attractive to rebel 
groups looking for either refuge or unobserved transit points. For 
example, there are reports that the Lord's Resistance Army is planning 
on shifting its operations to CAR, especially if it is forced out of 
the Democratic Republic of Congo.

              U.S. GOVERNMENT EFFORTS TO PROMOTE STABILITY
 
   The U.S. Government has taken a holistic approach to address 
stability and security in Chad and CAR, one that takes into account 
both regional and domestic dynamics. We have publicly and privately 
supported a robust United Nations (U.N.) peacekeeping operation in Chad 
and CAR that will focus on both protecting civilians and deterring 
cross-border attacks. While the proposed mission will not have an 
express mandate to secure the Chad-Sudan and CAR-Sudan borders, we 
believe that its presence and execution of its civilian protection and 
monitoring mission will lead to a reduction in violence.
    We have consistently encouraged the Chadians to accept a robust 
military mission and were disappointed by the Chadian Government's 
recent rejection of the military component of the proposed mission and 
the deployment of the advance mission. We will continue to engage with 
President Deby to convince him to accept a military force. We have also 
consulted with other allies, including France, the United Kingdom, NATO 
partners, and others about how to obtain Chadian acquiescence to the 
operation and will continue to work with both our African and non-
African partners on this issue. President Bozize has announced his 
readiness to accept a robust peacekeeping force in northeastern CAR.
    We are committed to generating the most robust force possible for 
the operation and have approached several governments with requests for 
contributions. We understand, however, that with approximately 100,000 
international peacekeeping troops currently deployed worldwide, force 
generation for the Chad-CAR mission will be a challenge. Therefore, if 
necessary, we will urge the Security Council to consider options that 
may decrease the number of troops in exchange for greater logistical 
support or equipment, such as helicopters, that will keep the force 
agile and robust.
    There have been a number of efforts, both bilateral and based on 
third parties in the region, to either police the Chad-Sudan border or 
to commit Presidents Deby and Bashir to avoid interference in the 
other's country. None of these have borne fruit, and our position 
remains that U.N. peacekeeping forces in Darfur, eastern Chad, and 
northeastern CAR remain essential. We will continue to monitor these 
alternative efforts, however, and may find opportunities to support 
them as complements to U.N. efforts.
    To address concerns that the force has been dispatched to bolster 
unpopular regimes or could be viewed as belligerent by local 
populations and rebels, we anticipate developing a public diplomacy 
campaign to explain to the Chadian and Central African people our goals 
of protecting civilians and promoting regional stability.
    The United States has repeatedly condemned efforts by Chadian 
rebels to take power by force and urges both Sudan and Chad not to 
engage in support for rebels in the other country.
    Because we recognize that poor governance is a major cause of 
Chadian instability, we have emphasized the importance of democratic 
reform, respect for human rights, dialogue, and transparent governance 
in our communications with Chadian officials. This message has been 
delivered at every level, from Secretary Rice to President Deby down to 
our working-level interactions. We have consulted with our European 
Union, French, and U.N. colleagues on their programs to reform the 
electoral process, and intend to fund a census project to complement 
their efforts. We have also encouraged President Deby to consider how 
best to ensure a peaceful and democratic handover of power when his 
current term of office expires in 2011. In addition, our human rights 
policy in Chad has focused on strengthening the institutions necessary 
for a stable democracy such as civil society and a free, fair, and 
professional press. Among other programs and activities designed to 
protect human rights, the United States supports legal assistance for 
victims of human rights abuses through local human rights NGOs.
    Good governance includes the transparent collection and expenditure 
of the government's oil revenues, and to this end, the Treasury 
Department has provided technical assistance to Chad's oil revenue 
management oversight body. We continue to encourage the Chadian 
Government to fight corruption, spend its revenues transparently, and 
to implement poverty reduction programs as recommended by the 
International Financial Institutions. We have also urged the Chadian 
Government to live up to its commitment to spend 70 percent of its 
budget on priority sectors for poverty reduction. Fulfillment of these 
conditions is the key to unlocking substantial debt relief under the 
Heavily Indebted Poor Country and G-8 (Multilateral Debt Relief) 
Initiatives.
    Under the Trans Sahara Counter Terrorism Partnership (TSCTP), an 
interagency initiative to which Chad belongs, the United States seeks 
not only to strengthen regional counterterrorism capabilities and 
enhance cooperation among the region's security forces, but also to 
promote democratic governance as a means to discredit terrorist 
ideology. TSCTP activities, which include strengthening of local 
governments, conflict management, and small scale infrastructure 
projects in targeted regions, not only help deter terrorism, but also 
promote domestic stability. In fiscal year (FY) 2006, United States 
Agency for International Development (USAID) development assistance for 
Chad totaled $1.35 million. The Department of Defense contributed 
another $501,000 in humanitarian assistance activities in the education 
and water sectors.
    As in Chad, poor governance is at the heart of instability in CAR. 
As in Chad, we engage regularly with CAR officials about the need for 
democratic reform, increased respect for human rights, and good 
governance. We support CAR's upcoming political dialogue under the 
auspices of the CAR's Council of Wise Men, a group of respected 
officials tasked with mediating CAR's political disputes. U.S. efforts 
to support democracy and human rights in the CAR have focused on 
strengthening the media and the Parliament, which is composed of 
largely inexperienced legislators and remains susceptible to pressure 
from the executive branch, as well as on providing voter education.
    In international fora, the United States has announced its support 
for the mandates of the U.N. Peace-Building Office in the Central 
African Republic (BONUCA) and of the Multinational Force of the Central 
African Monetary and Economic Community (also known as FOMUC) in order 
to promote stability in CAR. Both BONUCA and FOMUC, while constrained 
by their small sizes and budgets, have contributed considerably to the 
pursuit of peace in CAR.
    Our military training (IMET) programs in Chad and CAR, which are 
vital to promote long-term institutional military reform were funded at 
$342,000 in FY 2006 for Chad, and at $105,000 in FY 2006 for CAR. The 
IMET program focuses on security sector reform, professionalization of 
the military, and civil-military relations with the goal of providing 
better security for the people of both countries. Our Chad military 
assistance is coupled with a demining program, intended to make more of 
Chad's arable land available to the population, which concluded earlier 
this year.
    Force professionalization is badly needed in CAR, particularly in 
the northwest where members of the military and presidential guard, in 
addition to the rebels, commit human rights violations with impunity 
and therefore contribute greatly to instability. We also support 
responsible forest management and good governance through the Central 
African Regional Program for the Environment (CARPE). Because CARPE 
divides its budget based on transborder biodiversity landscapes instead 
of countries, we don't have an exact estimate of CARPE funding for CAR, 
however, we estimate that CAR receives several hundred thousand dollars 
as part of the program and that CARPE represents our greatest 
nonemergency assistance to CAR.

                         HUMANITARIAN SITUATION

    The United Nations estimates that there are 230,000 Sudanese 
refugees in Chad, 20,000 Chadian refugees in Darfur, and 50,000 CAR 
refugees in southern Chad. There are up to 110,000 IDPs in eastern 
Chad; their numbers have doubled in the last 5 months and they have 
suffered secondary displacement. The United Nations estimates that 
approximately 280,000 Central Africans are displaced, of whom 212,000 
are IDPs, 20,000 are refugees in Cameroon, and the remaining are 
refugees in southern Chad. The majority of these refugees are from the 
northwestern part of the country.
    Attacks on civilians are widespread in both Chad and CAR and have 
left thousands of civilians without livelihood, shelter, or food. 
Scorched earth tactics are becoming common. Because of limited staff 
and insecure humanitarian corridors, providing services to civilians 
has become increasingly difficult.
    There are fewer reports of interethnic violence in CAR, though it 
should be noted that the northeast part of the country is ethnically 
distinct and geographically cut off from the rest of the country. The 
bulk of attacks on civilians seem to occur in the northwest part of the 
country, and perpetrators include the CAR military, presidential guard, 
military deserters, bandits, and rebel groups.

               U.S. EFFORTS TO ADDRESS HUMANITARIAN NEEDS

    Security is the sine qua non for humanitarian access and adequate 
response to the protection and assistance needs of civilian 
populations, including refugees and IDPs. The international 
peacekeeping force envisioned for Chad and CAR will have the protection 
of civilians, including by use of force if necessary, as its primary 
mandate. As discussed above, the United States is actively engaged to 
make this force a reality.
    The United States has continued to facilitate the work of human 
rights organizations and NGOs working to protect refugees in Chad. 
Through regular meetings with high-level officials in Chad and the CAR, 
we also continue to raise concerns about the deteriorating security 
situation and human rights abuses committed by government security 
forces, particularly abuses against the displaced and other vulnerable 
populations.
    The USG is the largest single humanitarian donor in the region. A 
concerted focus on the Darfur refugees in eastern Chad starting in 2004 
brought conditions in what are now 12 camps close to international 
humanitarian standards under extremely difficult logistical conditions 
in a large area where finding water has been very challenging. The 
gains of the last 2 years are threatened by the current instability. 
The CAR refugees in southern Chad have not received the same level of 
international support. Only within the past year have the needs inside 
the CAR begun to gain necessary international attention.
    Humanitarian funding for FY 2006 for Chad included $4 million for 
emergency supplies, relief commodities, programs to address food 
insecurity, water and sanitation programs, income generation 
activities, and nutrition assessments for Chadians affected by the 
presence of refugees and for IDPs; $23.8 million in emergency food 
assistance (in addition to the $2.7 million in nonemergency food 
assistance that we provide), $610,000 for humanitarian radio programs, 
and $45 million to support refugee and IDP camps and programs and to 
provide security for the refugee camps.
    Humanitarian funding for FY 2006 for CAR includes $565,000 in 
emergency food assistance and $350,000 for programs to respond to the 
International Committee of the Red Cross's (ICRC) supplemental 2006 
appeal for conflict victims. PRM support for ICRC and UNHCR programs in 
Africa will have also benefited those in CAR. We expect these numbers 
to increase significantly in FY 2007.
    In January and February of 2007, assessment teams from USAID 
traveled to conflict-affected areas in Chad and CAR to assess 
conditions for IDPs, analyze humanitarian capacity, and determine 
potential program areas. The teams made several recommendations on how 
to improve humanitarian assistance, including increasing donor 
coordination with other bilateral and multilateral donors, 
prepositioning essential relief stocks, expanding emergency water and 
sanitation interventions, and bolstering food aid programs. We are now 
determining how best to utilize available resources to implement these 
recommendations.
    The United States is committed to doing our full part to protect 
civilians in Chad and the Central African Republic and to mitigating 
factors leading to regional instability. There are no easy solutions. 
Both the proximate and institutional causes of instability are complex 
and require that we consult closely with the rest of the international 
community as well as the governments of Chad and CAR, which we have 
committed to do.
    Thank you, Mr. Chairman and members of the subcommittee, for your 
interest and for giving me the opportunity to brief you on this very 
important matter.

    Senator Feingold. Thank you, Mr. Swan, very much for your 
testimony and your interest in this area. My office and I will 
be very interested in your further input and will be very 
engaged in this.
    Let me ask you some questions. I noted when I was in Chad 
in January 2005, the rather small United States Government 
presence in Chad, and I understand our presence is similarly 
limited in the Central African Republic. What is the size and 
nature of the United States Government presence in Chad and the 
CAR at this point?
    Mr. Swan. Both are relatively small missions, Senator. I 
don't have the exact numbers of staff for those missions. I 
know that in the case of Central African Republic I believe 
it's around five people that we have there.
    We have recently assigned a new political economic 
reporting officer to the Central African Republic mission, to 
our mission in the Central African Republic, and we are looking 
forward to some additional coverage of developments in the 
country on that basis. We also are looking to expand somewhat 
the size of that operation during the course of this summer 
with additional staff who will be arriving at post.
    With respect to Chad, I do not know the exact numbers of 
our staff there. It is significantly higher than the numbers 
for the Central African Republic, and staff has, in fact, been 
supplemented by some additional personnel who have been sent on 
a temporary duty basis to ensure that we have additional 
coverage that's necessary.
    Senator Feingold. Do you know how many additional people 
have joined that mission?
    Mr. Swan. I don't know exactly, but we can certainly get 
that precise figure for you, Senator.
    Senator Feingold. And I take it the addition of the person 
in the Central African Republic and the additional staff in 
Chad relate to the deteriorating security and humanitarian 
conditions, or were there other reasons for this scaling up of 
U.S. personnel?
    Mr. Swan. It's about all of our interests, obviously, in 
those two countries, but certainly, as I have mentioned, the 
importance of the humanitarian situation will mean that we're 
going to want to have as close coverage of those issues as we 
can.
    I would like to add, if I might, Senator----
    Senator Feingold. Yes; I would like you to follow up with 
the specifics on Chad if you----
    Mr. Swan. Yes; I will be happy to. And in specific, with 
respect specifically to the humanitarian situation, two very 
experienced humanitarian assessment teams were dispatched to 
Chad in January, and then to Central African Republic in 
February, including some of our senior Office of Foreign 
Disaster Assistance personnel with tremendous experience in the 
region. So while we have quite small missions in these two 
countries, we are looking for opportunities to bolster their 
capability with other assessment teams as needed.
    Senator Feingold. You started talking about the funding 
levels. I wonder if you could go over again the levels of 
United States assistance to eastern Chad and the CAR, and 
relative to the resources allocated to Darfur.
    Mr. Swan. For fiscal year 2006, on the humanitarian side, 
specifically with respect to Chad the total is approximately 
$74 million. This includes $4 million--this was for fiscal year 
2006--$4 million for emergency supplies, relief commodities, 
and programs to address food and security; approximately $24 
million in emergency food assistance; $610,000 for humanitarian 
radio programs; and $45 million to support refugee and IDP 
camps.
    In CAR the figure was $565,000 in emergency food assistance 
and $350,000 for programming through the International 
Committee of the Red Cross. We believe that the totals are, in 
fact, somewhat higher than that because there are some regional 
programs funded through the Bureau of Population, Refugees, and 
Migration that would likely benefit CAR as well, but we are not 
able to break that out, specifically, to know the exact figures 
for CAR, but it would probably be slightly higher than the 
amount I just cited.
    Senator Feingold. Well, what's the Darfur number?
    Mr. Swan. I do not know the total Darfur number. We have--I 
know that Special Envoy Natsios has repeatedly indicated a 
total figure of--I believe it's $2.7 billion.
    Senator Feingold. In the last 2 years.
    Mr. Swan. That's correct, 2005 and 2006.
    Senator Feingold. How do you explain this enormous 
disparity in U.S. assistance between these three troubled 
areas?
    Mr. Swan. I think that, in part, it is a reflection of the 
horrific humanitarian tragedy in Darfur, including the perhaps 
hundreds of thousands of people killed in that conflict, that 
has, of course, led to a heavy focus of attention on that 
region and on that area.
    With respect to Chad and CAR, certainly in terms of 
responding to the humanitarian situation and indeed in terms of 
our presence in general in the Central African Republic, this 
is a country that's gone through many years of instability. 
There has been a small international presence there for a 
number of years. And so I think we are at a point, in the 
aftermath of the 2005 elections, of beginning now to 
reestablish a more normal relationship in terms of our 
presence, both on a bilateral level but also in terms of our 
response to the humanitarian situation.
    Senator Feingold. I would just suggest that this kind of 
disparity was, at least, understandable before people 
understood the interrelationship between the situation in Sudan 
and Darfur and the Central African Republic and Chad, but it 
really can't be justified at this point.
    When I went to see the refugees, we went to Chad, and I 
understand there's an emphasis on Darfur refugees and IDPs, 
while displaced Chadians receive far less attention and 
assistance. As I said in my opening statement, the national 
boundaries really don't matter here. So this is the point of 
this hearing: To try to develop a comprehensive approach to 
addressing this regional challenge, and our funding will have 
to begin to reflect that.
    What other countries have been the major providers of 
assistance to Chad and the CAR, and what kind of support are 
they sending?
    Mr. Swan. The European Union is an important provider to 
both of those countries. I don't know, specifically, what their 
programs involve. And of course both have close relationships 
with France and have been historic bilateral partners of the 
French.
    Senator Feingold. What role do you foresee the United 
States playing in motivating, facilitating, and/or enforcing 
the peace processes that are going to have to take place within 
each of these countries?
    Mr. Swan. We already maintain a very active program of 
outreach to political opposition groups, civil society 
organizations, and others in both the Central African Republic 
and Chad, in terms of trying to encourage greater dialog and 
contacts between the government and between opposition figures.
    I've spoken over the past couple of days with both our 
Charge in Bangui and also our Ambassador in N'Djamena. And in 
N'Djamena I know that our Ambassador is convening frequently 
informal meetings that bring together Chadian Government 
officials, opposition figures, to stress the need for a more 
active reconciliation process, and we would certainly continue 
to do that.
    Senator Feingold. That's what we're doing now, but what do 
you foresee as our future role? Are we going to be the primary 
facilitators of this? Are we going to be doing it in 
conjunction with others? How do you foresee the peace process 
unfolding?
    Mr. Swan. I think we will be doing it in conjunction with 
others, as I indicated.
    Senator Feingold. And those others in particular would be?
    Mr. Swan. I think we would be looking at certainly the U.N. 
officials. There is already the U.N. office in the Central 
African Republic that convenes regular meetings with both other 
members of the diplomatic community and figures within the 
Central African Republic leadership, in terms of trying to 
encourage greater dialog, and I think we would want to continue 
to work with that. If there is a----
    Senator Feingold. What about external from the region?
    Mr. Swan. Yes, indeed----
    Senator Feingold. What other countries would be involved?
    Mr. Swan. Well, I think we would want to again work with 
our European Union partners, and the French, of course, play a 
critical role in both these countries, and it will be important 
to ensure that we are on a similar wave length in terms of how 
to proceed.
    Senator Feingold. Thank you. What's your analysis of the 
root causes driving these homegrown insurgencies in both Chad 
and the Central African Republic?
    Mr. Swan. These are countries that have a long history of 
instability. This is not a new phenomenon in these countries. 
Neither Chad nor the Central African Republic has an 
established history of rotation in office through democratic 
change.
    Fundamentally, these are deeply insecure and undeveloped 
countries in terms of their levels of food insecurity, in terms 
of physical insecurity of their populations. They are plagued 
by poor governance, and as a consequence, key elements of their 
populations feel that they are not receiving benefits from the 
central government. They feel they're not receiving, 
particularly in the case of Chad, the wealth that is emerging 
from their oil sector. And as a consequence some of these 
groups have begun to take up arms against the leadership 
elements in these countries.
    Certainly in the case of Chad there is also a significant 
ethnic element to this, inasmuch as you have some splits within 
President Deby's own Zaghawa community, with certain elements 
even within his own family challenging him for leadership and 
power positions within the country. But in addition to that you 
have other groups that also believe that they are being 
marginalized by the current leadership, and that as a 
consequence they need to assert through force of arms their 
political interests.
    Senator Feingold. I don't know if this is historically 
accurate, but the sense I got in January 2005 was that these 
external problems, particularly coming over from Sudan and 
Darfur, were perhaps heightening the intensity of the 
insurgency. Is that accurate, or is that just an impression I 
have?
    Mr. Swan. Yes; I think your impression is absolutely 
correct, Mr. Chairman, that there are both internal factors and 
external factors. The internal factors range, frankly, from 
traditional intercommunal conflict, oftentimes pitting herders 
against cultivators in these resource-strapped areas of 
particularly eastern Chad. But in addition to that, you have 
politically motivated domestic rebel groups whose interests are 
primarily to challenge President Deby for power in N'Djamena.
    But they are indeed benefiting from certainly refuge in 
Sudan, and I think there are strong indications that some of 
these groups have also received direct assistance in terms of 
their activities and their military activities in Chad.
    I would point out, if I might, sir, that this is a 
historical pattern in Chad. Both President Deby and his 
predecessor, Hissene Habre, took power in N'Djamena based on an 
internal rebellion they developed that benefited extensively 
from safe haven and support within Sudan, so there's a certain 
repetition of history here. But it's a volatile cocktail that 
includes----
    Senator Feingold. I'm pleased you brought out the external 
aspect as well, because I think that's an important part of the 
story.
    The Feingold-Sununu resolution also calls for the 
appointment of a U.N. regional envoy charged with overseeing 
and coordinating humanitarian access and assistance in Darfur, 
eastern Chad, and the northern Central African Republic. Does 
the administration support the appointment of such an envoy? 
And what steps is the administration taking, or will it take, 
to support such an appointment?
    Mr. Swan. We are at a stage now, with respect to the 
upcoming peacekeeping operation for eastern Chad, of consulting 
with our Security Council partners. Obviously, a portion of 
that peacekeeping operation is going to involve protection of 
civilians. It's going to involve support to humanitarian 
organizations to improve and ensure humanitarian corridors.
    So I think we will be looking at the issue of any new 
envoys or new individuals who would be playing a regional role 
in the context of looking at both that peacekeeping operation 
and, obviously, the ongoing discussion with respect to an 
operation for Darfur. But I can't tell you today that we would 
specifically support or not support the creation of such an 
envoy.
    Senator Feingold. I would ask you to put that as high on 
your agenda as you can, to give me an idea of what your 
position is on it. I do appreciate your testimony today, Mr. 
Swan. Thank you.
    Mr. Swan. Thank you very much.
    Senator Feingold. I'd like to ask the other panel to come 
forward.
    Thank you for coming up. I welcome the second panel, and 
we'll begin with Mr. Bacon.

      STATEMENT OF KENNETH H. BACON, PRESIDENT, REFUGEES 
                 INTERNATIONAL, WASHINGTON, DC

    Mr. Bacon. Thank you very much, Senator Feingold. I want to 
thank you and Senator Sununu and the subcommittee for holding 
this important and timely hearing. The central African region 
where the borders of Chad, Sudan, and the Central African 
Republic intersect is one of the poorest, least stable areas of 
the world, and as a result the area is filled with refugees and 
displaced people.
    You are correct to see security and humanitarian challenges 
there in regional terms. I applaud the three-country focus of 
Senate Resolution 76, and I appreciate the call for greater 
U.S. leadership and international involvement in resolving the 
security, human rights, and humanitarian problems in the 
region.
    My organization, Refugees International, has spent 
considerable time in these countries. In fact, two of my 
colleagues have just returned from Chad and the CAR, and I 
think they're going to meet with your staff later this week or 
early next week. Based on our time in the region, I want to 
summarize several points at the very beginning.
    First, insecurity, poverty, political and ethnic tensions, 
and displacement are all interrelated, yet each country has 
different problems which must be addressed separately.
    Second, the key to resolving the problems is political, not 
military. Even if the United States or other countries were 
prepared to commit troops, and we are not, or the United 
Nations could deploy large peacekeeping forces, troops would be 
no more than a palliative until the underlying political 
differences are resolved.
    Third, as you pointed out, the humanitarian response has 
been very uneven. Huge resources are going to help the people 
in Darfur, with much less effective responses in the Central 
African Republic and Chad. Working bilaterally or through the 
United Nations, we need to fix this disparity by increasing aid 
to the Central African Republic and Chad. In fact, I believe 
that a relatively modest humanitarian investment in the Central 
African Republic now could forestall or avoid a much more 
costly emergency response later.
    Perhaps the fastest way to appreciate the magnitude and 
complexity of the problems in the region is to look at the 
populations of refugees and displaced people. Mr. Swan touched 
on some of this. But while doing this I would also like to 
comment on the humanitarian responses to the displacement.
    In Sudan, a 4-year civil war in Darfur, characterized by 
our Government as genocide, has displaced about 2.2 million 
people internally and driven 234,000 refugees to Chad. There 
has been a huge humanitarian operation in response to this, and 
it has been quite successful. But, sadly, that response is 
currently in danger. Stepped-up violence and harsh government 
treatment, ranging from harassment to attacks, even including 
the rape of humanitarian workers, are driving international 
staff from Darfur and complicating the delivery of food and 
supplies on which the population now depends.
    In addition, there are some 14,000 refugees from Sudan in 
the Central African Republic. They went there during the 21-
year civil war between north and south Sudan. That war, which 
displaced over 4 million south Sudanese, officially ended 2 
years ago with the signing of the Comprehensive Peace Agreement 
which was brokered by your former colleague, Senator John 
Danforth.
    The Khartoum government has violated significant parts of 
the CPA already, with little or no public objection from the 
United States. We need to be resolute in pushing for the full 
implementation of that agreement. For south Sudan to fall back 
into conflict would be devastating for peace in the region, and 
a diplomatic setback for the United States.
    Chad not only hosts 234,000 refugees from Darfur but also 
about 60,000 refugees from the Central African Republic. And in 
addition, as Mr. Swan pointed out, fighting in the eastern 
region has displaced about 120,000 Chadians, and that number 
has increased dramatically in the last half year.
    Although the United Nations is working to improve 
humanitarian services for refugees from Darfur, aid for the 
internally displaced populations in eastern Chad has been 
completely inadequate. And I've submitted for the record a 
recent report from one of my colleagues on eastern Chad that 
goes into this in considerable detail.
    In the Central African Republic, the number of people who 
have fled their homes to avoid fighting between government and 
rebel forces in the northwest corner of the country has reached 
212,000, up more than fourfold in the last year. Government 
forces are responsible for much of the displacement. Just last 
week my colleagues visited a village in northwest Central 
African Republic that had been burned by government troops. I 
have also submitted that report for the record.
    I congratulate the subcommittee for focusing on the CAR. 
The growing humanitarian crisis there has received very little 
attention. Partially as a result, the response of aid agencies 
has been slow and limited. Much more needs to be done. For 
example, a $10 million investment in seeds and tools now, a 
month or two before the rainy season, would enable displaced 
farmers to plant crops this season, reducing the risk of future 
starvation.
    The porous borders of the three countries make it easy for 
refugees to move back and forth. The unmonitored borders also 
make it easy for militias and bandits to move at will, and they 
do, killing, stealing, destroying, and destabilizing.
    Obviously, a U.N. force along the Chad-Darfur border would 
help protect civilians and stabilize the region, if the force 
had enough manpower, enough mobility, and the proper mandate. 
According to recent reports, the President of Chad opposes such 
a force. The United Nations, working through France and other 
member-states, needs to put pressure on Chad to accept a U.N. 
force that can succeed in helping to protect people in a vast, 
unruly area.
    Even though the key to ending strife and displacement in 
the region lies in reaching political settlements in each of 
the three countries, the border area needs to be secure. Senate 
Resolution 76 addresses the security force issue. Let me list 
several other things the United States should do, by country.
    Sudan. There are three urgent challenges: Getting the 
government and rebel groups in Darfur to begin comprehensive, 
good-faith peace negotiations that will stop what President 
Bush and Congress correctly have called genocide. The second 
point: Maintaining the humanitarian operation, now the world's 
largest, in Darfur with sufficient resources and security, and 
as I said, this is becoming increasingly difficult because of 
the actions of both the rebels and the government forces. And 
three: Bolstering and supplementing the current African Union 
force in Sudan so that it can provide greater protection to 
civilians, particularly the women, who risk rape every time 
they venture out of their camps.
    Currently, the United States policy toward Sudan is 
failing. Sudanese and government-backed forces continue to 
attack civilians and humanitarian workers with impunity in 
Darfur, and some fear they may be preparing to do so in the 
south again as well.
    For several years, United States efforts to change Sudanese 
behavior have been all talk and no action. That may be changing 
with the imposition of stiffer financial sanctions on Khartoum. 
Until it is clear to Sudan that it will pay a painful price for 
its state-sponsored death and displacement, the war will 
continue unabated.
    Moving to Chad. An end to the war in Darfur would enable 
refugees to return home and reduce current cross-border 
attacks, alleviating some of the pressure on Chad. But 
intertribal attacks in eastern Chad and the fighting between 
rebel groups and the government would likely continue.
    So far, the government has refused to begin good faith 
negotiations with rebel groups, some of whom are supported by 
Sudan. Until the sides can address their grievances, peace and 
stability will be elusive. France, which maintains troops in 
Chad and provides crucial support to the government, may be 
able to exert more pressure on all sides to start negotiations.
    The second major issue in Chad today is the dearth of 
humanitarian services in the eastern area, where internal 
displacement is growing rapidly. In a report to the U.N. 
Security Council just last month, Secretary General Ban Ki-moon 
admitted that ``direct assistance to internally displaced 
persons has thus far been insufficient.'' Insufficient, he 
said. He praised the government for doing more to help 
internally displaced people in the area, but it's clear that 
the United Nations needs to boost its presence and its programs 
in the region.
    Finally, the Central African Republic. Despite growing 
displacement in the northwest region, there is not yet a 
humanitarian emergency there. Both the United Nations concludes 
that, I think our government concludes it, and my colleagues 
have concluded that. But conditions could turn dramatically 
worse if the fighting continues and the United Nations doesn't 
begin to respond more effectively to growing humanitarian 
problems. As I mentioned earlier, quick support packages to 
farmers now could fend off a future emergency.
    Actions, including the burning of houses, by government 
troops are responsible for much of the displacement. So there 
has to be more pressure on the government from donors to end 
such human rights abuses.
    There also has to be greater international involvement in 
the peace process. Some of the issues are economic, and it's 
possible that these could be resolved in the context of 
comprehensive peace negotiations.
    Progress toward peace in the central African triangle of 
instability has not been and will not be easy. But the key to 
progress is increased engagement by the United Nations and by 
countries like the United States, France, India, and China, 
with an interest in stability in the region.
    I want to thank you again for your interest in this and for 
the Senate resolution. My only specific comment on that 
resolution is, it focuses a lot on the peacekeeping force. I 
would like to see a greater focus also on political engagement 
and getting peace processes going in each of the countries.
    Thank you very much.
    [The prepared statement of Mr. Bacon follows:]

      Prepared Statement of Kenneth H. Bacon, President, Refugees 
                     International, Washington, DC

    I want to thank Senator Feingold, Senator Sununu, and the 
subcommittee for holding this important and timely hearing. The central 
African region where the borders of Chad, Sudan, and the Central 
African Republic intersect is one of the poorest, least stable areas of 
the world. The region is filled with refugees and displaced people.
    The subcommittee is correct to see security and humanitarian 
challenges there in regional terms. I applaud the three-country focus 
in Senate Resolution 76, and I appreciate the call by its sponsors, 
Senators Feingold, Sununu, and Levin, for greater U.S. leadership and 
international involvement in resolving the security, human rights, and 
humanitarian problems in the region.
    Refugees International has spent considerable time in these three 
countries. Over the last year we have made two assessment missions to 
each country, and two of my colleagues have just returned from Chad and 
the Central African Republic. Based on our time in the region, I want 
to make several points, which I will summarize at the outset.
    First, insecurity, poverty, political and ethnic tensions, and 
displacement are all interrelated, yet each country has different 
problems which must be addressed separately.
    Second, the key to resolving the problems is political, not 
military. Even if the United States or other countries were prepared to 
commit troops--and we are not--or the United Nations could deploy large 
peacekeeping forces, troops would be no more than a palliative until 
the underlying political differences are resolved.
    Third, the humanitarian response has been uneven. Huge resources 
are going to help the people in Darfur, with much less effective 
responses in the Central African Republic and Chad. Working bilaterally 
or through the United Nations, we need to fix this disparity by 
increasing aid to the CAR and Chad. In fact, a relatively modest 
humanitarian investment in the Central African Republic now could 
forestall or avoid a much more costly emergency response later.
    Perhaps the fastest way to appreciate the magnitude and complexity 
of the problems in the region is to look at the populations of refugees 
and displaced people. While doing this, I will also comment on 
humanitarian responses to the displacement.
    In Sudan, a 4-year civil war in Darfur, characterized by 
government-sponsored militia attacks on civilians, has displaced about 
2.2 million people internally and driven 234,000 refugees into Chad. 
Now, because of increased fighting in eastern Chad, some Chadians are 
seeking refuge in Darfur, so the refugees are beginning to move both 
ways. The internally displaced population in Darfur is sustained by a 
huge international aid operation that has been so successful that the 
nutritional condition of camp residents is often better than the 
population as a whole. Sadly, that successful response is currently in 
danger. Stepped up violence and harsh government treatment--ranging 
from harassment to attacks--of aid workers is driving international 
staff from Darfur and complicating the delivery of food and supplies on 
which the population depends.
    In addition, there are some 14,000 refugees from south Sudan in the 
Central African Republic. They went there during the 21-year civil war 
between north and south Sudan. That war, which displaced over 4 million 
south Sudanese, officially ended 2 years ago with the signing of the 
Comprehensive Peace Agreement, which was brokered by your former 
colleague, John Danforth. While the focus of this hearing is mainly on 
the intersection of Darfur, Chad and the Central African Republic, it 
is important to keep an eye on the implementation of the Comprehensive 
Peace Agreement. The Khartoum government has violated significant parts 
of the CPA already, with little or no public objection from the United 
States. We need to be resolute and aggressive in pushing for full 
implementation of that important agreement. For south Sudan to fall 
back into conflict would be devastating for peace in the region and a 
diplomatic setback for the United States.
    Chad, not only hosts the 234,000 thousand refugees from Darfur, but 
also about 60,000 refugees from the Central African Republic. In 
addition, fighting in eastern Chad--some tribal and some the 
depredations of militias from Darfur--has recently displaced about 
120,000 Chadians. They are, essentially, internal refugees. Although 
the United Nations has worked hard to improve humanitarian services and 
security for the refugees from Darfur, aid for the internally displaced 
populations in eastern Chad has been completely inadequate. I would 
like to submit for the record a recent Refugees International 
assessment of conditions in eastern Chad.
    In the Central African Republic, the number of people who have fled 
their homes to avoid fighting between government and rebel forces in 
the northwest corner of the country has reached 212,000, up more than 
four-fold in the last year. In addition, as I mentioned earlier, 
another 60,000 are seeking refuge in Chad. Government forces are 
responsible for much of the displacement. Just last week, my colleagues 
visited a village in northwest CAR that had been burned by government 
troops. I would also like to submit that report for the record.
    I congratulate the subcommittee for focusing on the Central African 
Republic. The growing humanitarian crisis there has received very 
little attention. Partially as a result the response of aid agencies 
has been slow and limited. Much more needs to be done. For example, a 
$10 million investment in seeds and tools now, a month or two before 
the rainy season, would enable displaced farmers to plant crops this 
season, reducing the risk of future starvation.
    The porous borders of the three countries make it easy for refugees 
to move back and forth. The unmonitored borders also make it easy for 
militias and bandits to move at will, and they do--killing, stealing, 
destroying, and destabilizing. Late last year, then-Secretary General 
Kofi Annan gave this description to the U.N. Security Council: ``The 
Darfur conflict has already spilled over into Chad with serious 
consequences for the country and beyond, while in the Central African 
Republic, the government asserts that Sudan is backing the rebels in 
the northeast. At the same time, it is clear that the northeast of the 
Central African Republic has been used by Chadian rebel groups as a 
route to bypass the Darfur-Chad border. . . . The porosity of the 
borders is attested to by the numerous reports of infiltrations, 
incursions and cross-border activities by tribal and Janjaweed 
militias, as well as the regular forces and rebels of each of the three 
countries, except the Central African Armed Forces.
    Obviously, a U.N. force along the Chad-Darfur border could help 
protect civilians and stabilize the region--if the force had enough 
manpower, enough mobility, and the proper mandate. According to recent 
reports, the President of Chad opposes such a force, even though it 
would help protect his own people as well as refugees in Chad. The 
United Nations, working through member states, particularly France, 
needs to put pressure on Chad to accept a robust U.N. force that can 
succeed in helping to protect people in a vast, unruly area.
    Even though the key to ending strife and displacement in the region 
lies in reaching political settlements in each of the three countries, 
the border area needs to be secure. Senate Resolution 76 addresses the 
security force issue. Let me just list several other things the United 
States should do, by country.
    Sudan. There are three urgent challenges:

  <bullet> Getting the government and the rebel groups in Darfur to 
        begin comprehensive, good-faith negotiations toward a political 
        settlement that will stop what President Bush and the Congress 
        correctly have called genocide.
  <bullet> Maintaining the humanitarian operation--now the world's 
        largest in Darfur with sufficient resources and security.
  <bullet> Bolstering and supplementing the current African Union force 
        in Sudan so that it can provide greater protection to 
        civilians--particularly the women who risk rape every time they 
        venture out of the camps for the displaced.

    Currently, the U.S. policy toward Sudan is failing. Sudanese and 
government-backed forces continue to attack civilians and humanitarian 
workers with impunity in Darfur, and, some fear, may be preparing to do 
so in south Sudan again as well. For several years, U.S. efforts to 
change Sudanese behavior have been all talk and no action. That may be 
changing with the imposition of stiffer financial sanctions on 
Khartoum. Until it is clear to Sudan that it will pay a painful price 
for its state-sponsored death and displacement, the war will continue 
unabated.
    Chad. An end to the war in Darfur would enable refugees to return 
home and reduce current cross-border attacks, alleviating some of the 
pressure on Chad. But intertribal attacks in eastern Chad--and the 
fighting between rebel groups and the government would likely continue. 
So far the government has refused to begin good-faith negotiations with 
rebel groups, some of whom are supported by Sudan. Until the sides can 
address their grievances, peace and stability will be illusive. France, 
which maintains troops in Chad and provides crucial support to the 
government, may be able to exert more pressure on all sides to start 
negotiations.
    The second major issue in Chad today is the dearth of humanitarian 
services in the eastern area, where internal displacement is growing 
rapidly. In a report to the U.N. Security Council last month, Secretary 
General Ban Ki-moon admitted that ``direct assistance to internally 
displaced persons has thus far been insufficient.'' He praised the 
government for doing more to help internally displaced people in the 
area, but it's clear that the United Nations needs to boost its 
presence and its programs in the region.
    Central African Republic. Despite growing displacement in the 
northwest region, where government and rebel forces are fighting, there 
is not yet a humanitarian emergency. But conditions could turn 
dramatically worse if the fighting continues and the United Nations 
doesn't begin to respond more effectively to growing humanitarian 
problems. As I mentioned earlier, quick support packages to farmers now 
could help fend off a future emergency.
    Actions, including the burning of houses, by government troops are 
responsible for much of the displacement, so there has to be more 
pressure on the government from donors to end such human rights abuses.
    There also has to be greater international involvement in the peace 
process. Some of the issues are economic, and it's possible that these 
could be resolved in the context of comprehensive negotiations.
    Progress toward peace in the central African triangle of 
instability has not been and will not be easy, but the key to progress 
is increased engagement by the United Nations and by countries--like 
the United States, France, India, and China--with an interest in 
stability in the region.
                                 ______
                                 

    Report From Refugees International by Rick Neal and Joel Charny

    CENTRAL AFRICAN REPUBLIC: ARMY HOUSE BURNINGS CONTINUE IN TENSE 
                               NORTHWEST

    On Sunday afternoon, March 11, Central African regular army troops 
burned at least 20 houses along a stretch of Regional Route 6 between 
Lia and Voh, approximately 30 kilometers south of Paoua in the tense 
northwest region of the country. Three civilians, including a baby, 
were killed in the crossfire and another one was seriously wounded in 
an encounter between the army and the rebel Armee Populaire pour la 
restauration de la republique et la democratie (APRD).
    The violence belies assurances given to Refugees International by 
senior Central African military personnel that house burnings would 
cease under direct orders from the President and their commander in 
Bangui, the capital.
    House burning, a tactic first used by the notorious Garde 
Presidentiel, has been rampant in the northwest as the Central African 
army, the FACA, confronts the APRD. On an extensive visit to the 
prefectures of Ouham and Ouham-Pende, Refugees International confirmed 
that tens of burned villages remain empty, their residents having fled 
to safety in rough settlements in the scrub land near their fields. 
Approximately 250,000 Central Africans have been displaced in 
successive waves of violence since 2003.
    Eyewitnesses to the March 11 attacks told Refugees International 
that the violence started as a confrontation in Lia between a small 
contingent of rebels, who move easily among the population, and a 
Central African army contingent moving up to Paoua from Bangui as part 
of a normal troop rotation. During an exchange with the rebels, Central 
African soldiers began shooting indiscriminately, and two civilians 
were killed in the crossfire, with one other individual seriously 
wounded.
    The FACA troops got down from their vehicles and began walking 
through the village, setting fire to two houses using lighters. Rural 
houses in the CAR almost all have thatch roofs, and in the dry season 
they burn in a matter of minutes when the thatch catches fire.
    The troops then continued up the road through four additional 
villages, setting fire to more houses. In Leourou, a stray bullet 
killed a baby on its mother's back. The mother survived.
    The rampage ended in Voh, where at least 10 houses were burned. 
Several civilians tried to shelter their bicycles and motorcycles in 
the church, but the soldiers removed them from the church and burned 
them.
    Refugees International was able to visit Voh and assess the damage 
to the village. While the walls of the mud brick houses were no longer 
hot to the touch, up to three inches of fine ash remained in the burned 
houses, suggesting that the burning occurred recently. Metal cooking 
pots were randomly strewn among the ashes. The RI team also saw the 
charred remains of a bicycle and a motorbike. Further fighting along 
the road to Voh on March 14 prevented the RI team from going as far as 
Lia to assess the damage where the fighting started.
    House burning is a clear violation of international humanitarian 
law, as it targets the assets of civilian noncombatants. It is an 
especially devastating tactic in Central Africa because poor villagers 
keep almost all their worldly possessions in their homes. When asked to 
cite their losses, the few residents of Voh who had not fled into the 
bush listed their stores of peanuts, corn, and cassava, as well as 
money, hand tools, plates, and other basic household items. They now 
face the coming planting season with virtually no resources.
    House burning produces displacement by driving the occupants of the 
village into the fields to find shelter and escape the depredations of 
the FACA. But they have an additional ripple effect in neighboring 
villages, as people gather their belongings and head to the bush as a 
preventive measure. During its assessment of the northwest, RI saw many 
villages that were abandoned without any evidence of burning.
    The house burnings are especially disturbing because under 
increasing international awareness and scrutiny, the Central African 
authorities maintained that they were prepared to reduce the harshness 
of their counter-insurgency tactics in the northwest. Two high-ranking 
Central African military officials based in the region had told RI 
unequivocally that house burnings were forbidden.
    Just before learning of the incident, the RI team was having lunch 
in the market in Paoua and discussing the overall situation with local 
residents. They were aware that a new group of soldiers was rotating 
in, replacing the previous contingent that had been there for 18 months 
during some of the most extensive violence and attacks on civilians. 
They expressed optimism that the presence of new soldiers would 
represent a new era in relations between the FACA and residents of the 
region. These hopes appear to be misplaced.
    Refugees International was unable to see the regional commander in 
Paoua to present its findings on this incident as he was out of the 
regional center. The commander must investigate this incident, 
discipline the perpetrators, and confirm the illegality of this tactic 
with the troops under his command.
    International presence in Paoua is extremely thin, with only the 
International Committee of the Red Cross, Medecins sans Frontieres, and 
COOPI, an Italian NGO, based in this important regional center with 
large numbers of people in distress. The absence of the United Nations 
in Paoua is painfully obvious. It is essential that the United Nations 
push forward with its previously announced plans to establish a U.N. 
regional office in Paoua, which would bring together key humanitarian 
response agencies of the U.N. system, including the Office of the U.N. 
High Commissioner for Refugees, UNICEF, the World Food Program, and the 
Food and Agriculture Organization.

    Senator Feingold. Thank you, Mr. Bacon, for that suggestion 
which we'll take seriously, for your leadership on this issue, 
and for your testimony. We do appreciate it.
    Now I'm pleased to turn to Mr. Prendergast, who has been 
before this committee many, many times. Its good to see you 
again.

 STATEMENT OF JOHN PRENDERGAST, SENIOR ADVISOR, INTERNATIONAL 
                  CRISIS GROUP, WASHINGTON, DC

    Mr. Prendergast. Thank you so much, Mr. Chairman, 
especially for the invite to dig a little deeper into what I 
think is the deadliest conflict cluster in the world today. And 
thank you, adding my thanks to Mr. Bacon's, for your ongoing 
commitment to these issues. Without you, and without a few of 
your colleagues, nothing. The pulse would simply be dead in 
Washington on these issues.
    I would like to add just a couple of footnotes to what Mr. 
Bacon has said in his excellent testimony and provide a policy 
framework, a conceptual framework, for how we can move forward 
more effectively.
    The dynamic between the three countries is multifaceted, 
but there are three drivers--since I think I'm the academic on 
the panel, so we always use ``drivers'' in our terminology--at 
the core of the violence.
    The first driver is cross-border attacks sponsored by the 
Government of Sudan, using the Janjaweed, into southeastern 
Chad and across the border into the CAR. These forces have 
joined--these Janjaweed forces have joined forces with Chadian 
militias, as we know, and are pursuing the same scorched earth 
policies that lit up Darfur from 2003 to late 2004, pursuing 
those same policies in Chad against non-Arab villages. We've 
seen, of course, intercommunal fighting, interethnic fighting, 
as a result of this, which is precisely the intention of 
Khartoum's divide and destroy policy.
    The second driver is cross-border support for insurgent 
groups. The Government of Sudan has openly admitted to 
supporting the Chadian rebels opposed to President Deby, and 
Deby is fairly transparent in his support for rebels going back 
across the border, the Darfurian rebels, into Darfur. The level 
of Sudanese support for rebels in the CAR, in the northeastern 
part of CAR, is less clear, but there are Sudanese fighters 
amongst their ranks, and some have actually received military 
training inside Sudan.
    The third driver is noninclusive governance in all three 
countries. And to be more specific, we all know the Sudan case, 
but Chad and CAR, just to reinforce what both Mr. Swan and Mr. 
Bacon have said, each has an internal political crisis 
independent of all the violence that we are seeing emanating 
from Darfur. Both governments in Chad and CAR came to power 
militarily, they pay lip service to democracy, and they fail to 
provide basic services to their citizens.
    Again reinforcing Mr. Bacon, there must be political 
solutions in Chad, Darfur, and CAR, but I think these solutions 
will require unraveling the cross-border nature of the 
conflicts and putting negotiations back within their domestic 
contexts.
    In Darfur you've got disunity among the rebels, 
uncoordinated and infrequent international diplomacy, and a 
failure to effectively pressure the Government of Sudan--
effectively pressure the Government of Sudan--which has led to 
this status quo which we've seen dragging on and on for the 
last year and a half now, unless the international community, 
led by the United States, agrees on a plan, a much more robust 
plan of action, and pursues it aggressively.
    In Chad you've got rampant corruption and mismanagement, 
causing wages to go unpaid for months. These are the kind of 
things you see in so many countries which are precursors to 
serious coup attempts. And we have seen the collapse of the few 
social services that had existed. In the absence of any 
international pressure--particularly from the French, which are 
sitting on the sidelines on these internal issues--on Deby's 
government to crack down on corruption and really share power 
with rivals, the root causes of insurrection in Chad will 
simply continue unabated.
    In the Central African Republic, divisive ethnic politics 
has been the norm, mixing with poverty and underdevelopment, a 
proliferation of small arms. I think Jim Swan called it a 
cocktail, a deadly cocktail. It's a combustible mix. I think 
we've only seen the tip of the iceberg of conflict in the CAR. 
Neighboring countries will continue to exploit these structural 
weaknesses in CAR, and even the LRA, as you might have heard, 
has sent forces into CAR, a couple hundred of them recently, to 
explore whether that might be a better safe haven than the 
Garamba National Park has been for them for the last year in 
Congo. So we've got a serious problem, obviously, continuing to 
brew in the CAR.
    Now, going straight to solutions. U.S. policy to contain 
and end, U.S. policy focused on ending this spiraling crisis I 
think needs to pursue a three-track policy. We call it the 
three Ps of crisis response: Peacemaking, protection, and 
punishment.
    Very quickly in each one of them. Peacemaking is obvious. 
Your subcommittee, you and the ranking member particularly have 
been strong on solutions beginning with regional diplomacy, and 
that is absolutely correct. While U.S. diplomats like Deputy 
Assistant Secretary Swan and military officials and 
humanitarian assessment teams all have made trips to Chad and 
CAR in recent months, the level of U.S. engagement has to be 
expanded, I think exponentially, and coordinated much more 
multilaterally to achieve any headway in ending the violence.
    The United States should establish a conflict resolution 
cell in the region that focuses not only on this conflict 
cluster but the other one, damaging one that involves the Congo 
and northern Uganda and Southern Sudan. And thankfully Mr. 
Bacon has brought up the implications of Darfur for Southern 
Sudan, which, of course, has cost five times as many lives as 
have been lost in Darfur during that war, so we have to keep an 
eye on that and do much more on that. So we think that, and 
we're trying to put numbers together, how much would it really 
cost, and it isn't that much, to deploy such a cell to really 
do the work that we need to do. We need to lead diplomatically 
in the region.
    So that's the peacemaking P. The second P is protection, 
and we've heard a lot about it. It's what we've seen a lot of 
action on. Of course we've got to get those 20,000 forces into 
Darfur under their hybrid. Work is intensive, I think, 
internationally on that. But I think we need to look at a 
couple other things.
    The first one is, we've got to more transparently begin to 
plan militarily for nonconsensual options for deploying a force 
to Darfur. And in the absence of that kind of nonconsensual 
planning, Khartoum is not going to take us seriously. We have 
to be seen to be moving forward on an agenda that would 
actually provide serious sticks if compliance is not 
forthcoming eventually. Yes; continue the diplomacy. Yes; ramp 
up the economic measures. But I think putting some work in 
NATO, and again transparently sending senior officials and 
generals to NATO to talk about these kinds of things, would 
actually send a message to Khartoum that would help affect 
calculations.
    The third P--so we've got peacemaking, we've got 
protection--the third P is punishment, and this is really the 
key. If we're going to get protection deployed to the region, 
if we're going to have a chance of securing peace deals that 
will address the fundamentals of conflict in Darfur and Chad 
and CAR, there has got to be accountability.
    We've got to start ramping up the tools that we have at our 
disposal, the financial and economic tools we have at our 
disposal, and those include--we know what they are--increased 
targeted sanctions. My understanding is, the Bush 
administration is going to announce three new people to be 
sanctioned within the Darfur context--three. There are so many 
officials that we know, we have reams of evidence, have been 
directly implicated in crimes against humanity.
    These people at the very least should be prohibited from 
traveling internationally, and their accounts should be frozen. 
We can do that tomorrow if we want to, at no cost. There are 
other economic and financial instruments that we need to be 
ramping up, and there again has to be a demonstrable intent to 
upgrade and expand these measures if we're going to have any 
chance of influencing the calculations of Khartoum and the 
regimes in the other two countries.
    In some, as Deputy Assistant Secretary Swan already 
indicated, the United States does indeed have a holistic 
approach to dealing with these three things: Protection, 
peacemaking, and punishment. The problem is, the administration 
isn't doing enough in each of these three policy baskets to 
really get a change in the situation on the ground. We need to 
ramp up our diplomatic involvement. We need to accelerate 
military planning for nonconsensual options. And we need to 
expand and implement the sticks that we already have at our 
disposal, to increase leverage for achieving our peace and 
protection objectives.
    Hundreds of thousands of lives, in conclusion, hang in the 
balance in this subregion this year. I've been there six times 
now in the last 4 years, into Chad and across the border into 
rebel-held areas of Darfur. There's no question, with the 
access eroding as rapidly as it is, we're getting to a 
situation--genocide is bad enough. Adding famine to genocide, 
watch out. That's when we really start to see mortality jump.
    And you have more and more populations who are not 
receiving assistance, whose access has been restricted because 
of the actions of the militias out in the field and because of 
government's, the Sudan's restrictions of humanitarian access. 
We're going to see famine in pockets and then expand, and then 
we're going to see a real situation develop there that we don't 
want to see.
    If the United States, though, leads regional efforts, 
multilateral efforts to deal with this regional contagion whose 
primary cause is in the Presidential palace in Khartoum, then 
the escalating crisis can be reversed. And it's going to 
require, I think, fairly aggressive advocacy on the part of 
this committee and citizen activists to get the attention of 
the Bush administration to actually do what's necessary to end 
the crisis.
    Thanks very much for the opportunity.
    [The prepared statement of Mr. Prendergast follows:]

     Prepared Statement of John Prendergast, Senior Adviser to the 
               International Crisis Group, Washington, DC

    Thank you, Chairman Feingold, Ranking Member Senator Sununu, and 
members of the subcommittee, for this opportunity to discuss the U.S. 
strategy for ending the crisis in Darfur which is now spilling over 
into Chad and the Central African Republic.
    In the current issue of Foreign Affairs, my colleague Colin Thomas-
Jensen and I argue that the interlocking conflicts in Sudan, Chad, and 
the Central African Republic (CAR) represent a conflict cluster that is 
tearing the region apart. The evidence for this assertion is clear. 
Violence in Darfur, eastern Chad, and CAR has escalated dramatically in 
recent months. Armed groups commit mass atrocities against civilian 
populations with grim regularity, and the increased displacement of 
civilians is stretching relief operations to the limit. Just yesterday 
(March 19, 2007), the U.N. Office for the Coordination of Humanitarian 
Affairs reported that camps for internally displaced persons (IDPs) in 
Darfur are almost at full capacity, and at least 700,000 conflict-
affected civilians in Darfur are beyond the reach of relief agencies.
    The dynamic between Sudan, Chad, and CAR is multifaceted, but there 
are three drivers at the core of the violence:

  <bullet> Cross-border attacks against civilians in southeastern Chad 
        by Sudan-backed Janjaweed militias--Sudanese Janjaweed have 
        joined forces with Chadian militias and are pursuing the same 
        scorched-earth policies against non-Arab villages as in Darfur. 
        Intercommunal and interethnic fighting is then a product of 
        this, which is precisely the intention of the Khartoum regime's 
        divide and destroy policy.
  <bullet> Cross-border support for insurgent groups--The government of 
        Sudan has openly admitted to supporting Chadian rebels opposed 
        to President Idriss Deby in response to Deby's fairly 
        transparent support for rebels in Darfur. The level of Sudanese 
        support for insurgents in northeastern CAR is less clear, but 
        there are Sudanese fighters among their ranks and some have 
        received military training inside Sudan.
  <bullet> Noninclusive governance in Sudan, Chad, and CAR--Chad and 
        CAR each has an internal political crisis independent of the 
        violence emanating from Darfur. Both governments came to power 
        militarily, pay lip-service to democracy, and fail to provide 
        basic services to their citizens.

    While this conflict is certainly a full blown regional crisis--
fomented principally by the Sudanese Government--the fulcrum for 
conflict in the Chad basin remains Darfur. Without a political 
settlement and an effective peacekeeping force to protect civilians in 
Darfur, Chad, and CAR will continue to burn.
    U.S. policy to contain and end this spiraling regional crisis must 
pursue a three-track approach following the ``3Ps'' of peacemaking, 
protection, and punishment.

  <bullet> Peacemaking: Any solution must begin with aggressive 
        regional diplomacy. While U.S. diplomats, military officials, 
        and humanitarian assessment teams have made trips to Chad and 
        CAR in recent months, the level of U.S. engagement must be 
        increased exponentially and coordinated multilaterally to 
        achieve any headway in ending the violence. The United States 
        should establish a conflict resolution cell in the region 
        staffed by full-time senior diplomats to work toward a 
        comprehensive agreement to end violence in Darfur and political 
        processes in Chad and CAR to address the lack of political 
        inclusiveness that fuels internal unrest. Most important is 
        striking a deal between the Sudanese regime and Darfur rebels, 
        which will require much more sustained and concerted efforts by 
        the United States and broader international community than is 
        presently being expended.
  <bullet> Protection: The United Nations must work in close 
        coordination with the African Union to line up the forces 
        necessary to reach the 20,300 troops for Darfur agreed upon by 
        the African Union, the United Nations, the Arab League, and 
        international donor countries. The international community must 
        also accelerate its planning and increase its preparedness for 
        military action without Khartoum's consent. Concurrently, the 
        United Nations should deploy a peacekeeping force under chapter 
        VII of the U.N. Charter to protect civilians and relief 
        operations in eastern Chad and CAR and to monitor and deter 
        cross-border attacks and arms flows. This force must be closely 
        linked to the peacekeeping operation in Darfur, as authorized 
        by the Security Council in Resolution 1706. Troop generation 
        will be a major problem, so the primary emphasis must remain on 
        deploying the hybrid force with a protection mandate to Darfur.
  <bullet> Punishment: As the International Crisis Group has long 
        argued, the Government of Sudan will continue to reject a 
        durable peace deal and a robust peacekeeping force until the 
        international community changes the cost-benefit analysis of 
        the regime. The international community, with strong U.S. 
        leadership, must alter the calculations of Sudan's ruling 
        National Congress Party (NCP--formerly the National Islamic 
        Front (NIF)) by working multilaterally to impose punitive 
        measures--such as targeted sanctions and economic pressures--
        against senior NCP officials and the companies they control. 
        The United States must also share declassified intelligence 
        with the International Criminal Court to help accelerate the 
        preparation of indictments against more senior Sudanese regime 
        officials implicated in the perpetration of mass atrocities.

    The ENOUGH campaign, an initiative that Crisis Group has recently 
launched with the Center for American Progress, applies this 3P 
approach to crises in Darfur, northern Uganda, and Congo, and 
encourages activists to press this agenda with policymakers.

                     CHAD AND SUDAN--BAD NEIGHBORS

    As the Darfur situation has deteriorated, hostilities between Chad 
and Sudan have increased. Chadian rebels and Janjaweed militias 
operating out of Sudan have launched increasingly frequent incursions 
into eastern Chad since October 2005. President Idriss Deby has blamed 
Khartoum for supporting these armed groups, declared a ``state of 
belligerence'' with Sudan and sought to strengthen his ties to the 
Darfurian rebels, who are spending increasing amounts of time in 
N'Djamena. Chad's last two Presidents came to power in military 
campaigns launched from Darfur, so Deby has reason to watch his eastern 
border. But the Darfur crisis has also exacerbated Chad's domestic 
political woes.
    Over the 4 years of the Darfur conflict, Chad and its people have 
seen their humanitarian, economic, political, and security situations 
decline. The country shares many of the same political and cultural 
fault lines as Sudan--Arab/non-Arab, Christian/Muslim, farmer/nomad, 
north/south--and hosts many of the same tribes affected by the fighting 
in Darfur. Bilateral relations have gradually worsened since 2003.
    Though President Deby historically enjoyed good relations with 
Khartoum, the heavy presence of his Zaghawa tribesmen in the Darfur 
rebel groups placed him in a difficult situation. He initially tried to 
strike a balance by formally cooperating with Khartoum while turning a 
blind eye as Zaghawa within his army helped the two main rebel groups: 
The Sudan Liberation Army (SLA) and the Justice and Equality Movement 
(JEM). The balance proved unsustainable, particularly as Deby came 
under fire from key constituents for not doing enough to support the 
Darfur rebels, and Chadian rebels organized inside Sudan. As Deby has 
strengthened his ties with the Darfur rebels, relations between the 
neighbors degenerated into proxy war.
    The most obvious consequence of the Darfur war has been the influx 
of more than 220,000 refugees into eastern Chad and cross-border 
Janjaweed incursions that have displaced some 100,000 Chadians. I have 
traveled to eastern Chad and rebel-held areas of Darfur six times since 
2003, and it is one of the poorest regions of one of the world's 
poorest countries. Although many border region inhabitants are from the 
same tribes as the refugees, the latter receive more support and 
services than the internally displaced Chadians. Unlike Darfur, 
displaced Chadians are not congregating in large numbers and, 
therefore, difficult to assist. Relief workers on the ground have told 
us that they are struggling to cope with the growing numbers of 
displaced.
    A second consequence has been an increase in insecurity in eastern 
Chad and a weakening of the army, which has lost both men and weapons 
to the Darfur rebels as well as to other armed groups in Darfur. JEM in 
particular recruited heavily among Chadian soldiers early in the 
conflict, buying mercenaries as well as weapons. Informal Chadian 
support has also flowed to the Zaghawa elements of the SLA and JEM in 
North Darfur.
    The third and most dangerous repercussion has been the division 
within the Chadian Zaghawa community over Deby's Darfur policy. Deby, a 
Zaghawa, came to power in 1990 by overthrowing Hissene Habre in a 
military campaign emanating from Darfur, where he was supported by the 
Sudanese Zaghawa. At the outset of the Darfur war, Deby worked closely 
with Khartoum, even ordering 800 troops into Darfur to fight the rebels 
in April 2003. This discouraged but did not stop support flowing to the 
rebels from Zaghawa in the Chadian military. Though his policy was 
divisive, Deby understood the danger of protracted war in Darfur and 
the threat from Khartoum if he did not cooperate. In August 2003 he 
organized the first negotiations, culminating in the ill-fated 
September 2003 Abeche cease-fire, which collapsed 3 months later, just 
before a massive government offensive.
    The May 2004 coup attempt by senior Zaghawa military commanders was 
primarily driven by discontent over Deby's lack of support to the 
Darfurian Zaghawa and his cooperation with Khartoum. The affair was 
managed peacefully, in part to avoid exposing divisions within the 
tribe to the rest of the country. Yet, those divisions have continued 
to grow, encouraged by Deby's decision to alter the constitution so he 
could run for a third term and grumblings over domestic issues such as 
unpaid salaries.
    Bilateral relations worsened dramatically in the second half of 
2005 as Khartoum welcomed all opponents of Deby, who dropped his veneer 
of neutrality to support the Zaghawa-based rebel groups in Darfur. 
Sudan's ruling National Congress Party and its military and security 
structures appear determined to topple Deby's regime and thereby weaken 
the Darfur rebels. A wave of defections of high-level Zaghawa, a spate 
of hit-and-run attacks by Sudan-backed rebels in eastern Chad, and an 
attack on an armory in N'djamena all occurred in the last 3 months of 
2005.
    The situation exploded in December 2005 when the Sudan-backed RDL 
(Rally for Democracy and Liberty), led by Khartoum's hand-picked 
Chadian dissident Mahamat Nour, attacked the town of Adre. The core of 
the RDL included elements which had been fighting beside Khartoum-
supported Arab militias in West Darfur, where the Chadian Arab presence 
is particularly high thanks to a history of displacement from Chad's 
civil wars and Arab migration and settlement since the 1970s. With 
Sudanese support, Nour pulled together an array of smaller rebel groups 
under a larger umbrella called the FUCD (United Front for Democracy and 
Liberty). While other rebel groups included dissidents from the inner 
circles of power and Deby's Zaghawa people who seek to distance 
themselves from Deby's costly failures and to maintain their prominence 
in the country's leadership, the FUCD appears determined to remove 
Zaghawa influence in Chad altogether.
    The RDL was defeated badly at Adre, but even more embarrassing than 
the loss was the exposure of Khartoum's direct involvement. Chad went 
public with its allegations reportedly because it had captured and 
killed Sudanese Army personnel. It is said to have presented the 
evidence to Libya, which led President Qaddafi to convene a summit in 
Tripoli on 10 February 2006 that brokered an accord between Presidents 
Deby and Bashir to halt support to each other's rebels. Although the 
agreement laid the foundation for a peacekeeping force to monitor the 
border, neither side took the accord seriously.
    In April 2006, FUC forces led an offensive against N'Djamena that 
was beaten back from the city's outskirts with heavy losses. The French 
Government provided intelligence and airlift capabilities to help Deby 
fend off the attack, and JEM fought side by side with Deby's forces. 
Crisis Group's interviews with Sudanese Government officials indicated 
that the coup attempt was backed strongly by members of Sudanese 
military intelligence.
    Hard-liners in the Sudanese Army, other security forces, and the 
ruling National Congress Party (NCP) share the FUC objective of 
undermining Zaghawa power because of Chadian support for the Darfur 
rebels. Khartoum, therefore, allowed FUCD to build its forces in West 
Darfur during the months before the April attack. In turn, Deby and his 
entourage encouraged the SLA faction of Minni Minawi and JEM, in which 
Sudanese Zaghawa dominate, to coordinate military and political action 
under an alliance launched in January 2006. Several serving and former 
Sudanese Government officials are involved in stoking a virulent hate 
campaign, alleging the Zaghawa are responsible for the war in Darfur 
and suggesting their goal is to establish a Greater Zaghawa State over 
large swathes of Darfur, Chad, and Libya.
    Since repelling the attack on N'Djamena, President Deby has focused 
on defeating or buying off the numerous internal threats to his regime. 
The Chadian military has consolidated its positions in main towns, 
leaving civilians in the countryside vulnerable to increasing attacks 
by rebel groups and the predations of the Janjaweed and other Khartoum-
backed militias. Moreover, the Chadian military has been guilty of 
human rights abuses against civilians it accuses of supporting Chadian 
rebels.
    Chad's relationship with Darfur rebels--particularly JEM and other 
groups under the umbrella National Redemption Front (NRF) formed by 
groups that refused to sign the Darfur Peace Agreement--has deepened 
considerably in recent months. Before late 2005 Deby had worked with 
Khartoum to undermine JEM, believing them a rival Zaghawa group and a 
threat to his regime. However, on a recent trip to the strategic town 
of Abeche in eastern Chad, Crisis Group researchers described the 
Chadian military and JEM rebels as ``indistinguishable.'' The NRF 
relies on Chad for sanctuary and support, and in return they assist 
Deby with internal security issues.
    In January 2007, Deby reconciled with Mahamat Nour, reportedly 
through large cash payments, and in early March Nour became Defense 
Minister. With the RDL now largely in his pocket, President Deby's 
principal concern right now is the Union of Forces for Democracy 
(UFDD), led by Khartoum's latest proxies Mahamat Nouri and Acheikh Ibn 
Omer. While not strong enough to threaten N'Djamena, the UFDD took 
control of Abeche for 24 hours in November 2006. Humanitarian 
operations for eastern Chad are based in Abeche, and the attack 
prompted a withdrawal of many international staff. Since the attack, 
humanitarian access has been severely limited by insecurity along the 
roads and the threat of rebel attacks.
    The risks of an outright war between Chad and Sudan would be high 
for both countries but it is likely that relations will deteriorate 
further regardless, as both governments position themselves for an 
expanded proxy conflict. Sudan wants to cut NRF supply lines and end 
Chadian support but it is unlikely it could decisively defeat the 
Chadian Army when it has been struggling with the Darfur rebels for 
years. Consequently, it will likely content itself with the current 
chaos in Darfur and not risk a dramatic change by open war with its 
neighbor.
    Deby benefits from highlighting the external threat and Sudan's 
support for Chadian rebels because that distracts attention from the 
domestic issues which are driving opposition to his regime. Full-scale 
war would seem suicidal for his smaller army, which already faces major 
challenges at home. And while Deby focuses on shoring up his military 
strength to fend off internal enemies, he rejects international calls 
for a robust U.N. peacekeeping force and Chadian citizens bear the 
brunt of escalating violence.

                        THE DARFUR-CHAD-CAR AXIS

    The instability in Darfur has fostered linkages between armed 
groups in Darfur, Chad, and CAR. The movements of CAR and Chadian rebel 
groups in the region are interrelated, and weapons flow easily across 
porous borders.
    Impoverished, conflict-prone, and poorly governed, CAR is easily 
affected by violence in the region. CAR was a safe haven for the Sudan 
People's Liberation Army/Movement (SPLA) during its 22-year civil war 
with successive governments in Khartoum, while Sudanese Armed Forces 
used CAR as a staging ground for attacks against the SPLA in Southern 
Sudan. At least 36,000 Southern Sudanese refugees fled to CAR, and 
repatriation of these refugees back to Sudan is ongoing.
    Outside the capital Bangui, CAR is largely ungoverned. CAR 
President Francois Bozize took control of CAR in a 2003 military coup 
with strong support from Deby, and, like Deby, his government is 
focused principally on remaining in power. Bozize retains a personal 
Chadian security force and enjoys strong support from the French 
Government, which participates in attacks against CAR rebels who move 
too close to Bangui. In addition, 380 peacekeepers from the regional 
organization CEMAC (Economic and Monetary Community of Central Africa) 
provide additional security for the regime.
    Rebel groups in CAR are fighting on two fronts, in the northwest 
and the northeast. In the northwest of the country, clashes between 
rebel groups and the CAR Armed Forces have forced 150,000 civilians to 
flee their homes. Some 50,000 refugees have crossed into Chad and 
another 30,000 into Cameroon. Atrocities have been committed by both 
sides and the CAR Armed Forces has systematically burned the homes of 
villagers it accuses of sheltering the rebels.
    The situation in northeastern CAR is more closely linked to 
violence in Darfur and eastern Chad. The principal rebel group in the 
northeast is the UFDR (Union of Democratic Forces for Unity), a 
recently formed alliance of smaller rebel factions that decry Bozize's 
corruption, allege state discrimination against Muslims, and demand 
that Bozize step down or share power.
    The dangerous axis between northeastern CAR, eastern Chad, and 
Darfur was fully exposed in April 2006, when the Chadian FUC rebels led 
by Mahamat Nour launched their attack on N'Djamena through CAR's 
ungoverned northeast. Following the failed coup, reports surfaced that 
aircraft crossing from Sudan into northeastern CAR landed and offloaded 
military hardware and some 50 uniformed fighters. In October 2006, UFDR 
rebels captured several towns, stealing supplies from CAR Armed Forces 
caught off guard by the well-planned attacks. In late November, CAR 
forces, with strong support from the French military, retook the towns 
in late November. Bozize insists that the UDFR is backed by Sudan. Both 
UDFR and Sudan deny such claims, but cross-border support for armed 
groups in CAR furthers Khartoum's agenda to regionalize the crisis to 
stifle a coherent international response.

                    CONTAINING AND ENDING THE CRISIS

    There must be political solutions in Chad, Darfur, and CAR, but 
these solutions will require unraveling the cross-border nature of the 
conflicts and putting negotiations back within their domestic contexts.

  <bullet> In Darfur, disunity among the rebels, uncoordinated and 
        infrequent international diplomacy, and a failure to 
        effectively pressure the Government of Sudan have led to a 
        dangerous status quo that will drag on indefinitely unless the 
        international community agrees on a plan of action and pursues 
        it aggressively.
  <bullet> In Chad, rampant corruption and mismanagement caused wages 
        to go unpaid for months and led to the collapse of the few 
        social services that existed. In the absence of international 
        pressure--particularly by the French--on Deby's government to 
        crack down on corruption and share power with rivals, the root 
        causes of insurrection in Chad will continue.
  <bullet> In CAR, divisive ethnic politics, poverty, underdevelopment, 
        and a proliferation of small arms has created a combustible 
        mix. Neighboring countries will continue to exploit structural 
        weaknesses in CAR until the international community invests 
        more heavily in extending state control beyond Bangui and 
        establishing a more inclusive government.

    As argued above, the way forward demands a coordinated and 
multilateral effort to implement the 3Ps: Building peace through 
diplomacy; protecting civilians through military deployment; and 
creating leverage through punitive action.
    Peacemaking: Bringing the Darfur rebel groups and the Government of 
Sudan back to the negotiating table will not be easy: The rebels are 
too divided right now to negotiate effectively, and the Khartoum regime 
has demonstrated no interest in stabilizing Darfur or in negotiating a 
fair political agreement, preferring to pursue its policies of divide 
and destroy. Since the conflict began in 2003, the two original rebel 
movements have splintered into at least eight different factions. 
International efforts to help forge rebel unity have been 
uncoordinated, sporadic, and are unlikely to work until the United 
States and its partners aggressively pursue a joint strategy.
    The formation late last year of a new U.N./AU mediation team is an 
important development. Newly appointed U.N. Special Envoy Jan Eliasson 
and AU Chief Mediator Salim Ahmed Salim are spearheading an effort to 
restart negotiations, but the peace process will not move forward until 
the rebels agree on a common negotiating position and the international 
community applies significant pressure on the government to return to 
the table. Despite the Sudanese Government's promises to allow rebel 
unification conferences to go forward, Sudanese bombers have attacked 
the locations of the last two planned meetings.
    Chadian President Deby and CAR President Bozize have demonstrated 
no commitment to addressing the root causes of instability in their 
respective countries, and they are unlikely to do so until they are 
compelled by their allies.
    The United States and European Union should assemble a team of 
diplomats based in the region to work intensively on unifying the 
Darfur rebel groups. The United Nations and African Union must 
immediately begin to build their capacity to reconvene negotiations 
between the government and the rebels. Concurrently, governments with 
leverage over Deby and Bozize--particularly the United States and 
France--should press them to begin an internationally supported 
political process to deal with internal rebel groups.
    Protection: The international community has agreed on a three-phase 
process to deploy a hybrid AU/U.N. peacekeeping force to Darfur, which 
Khartoum had initially agreed to. It is essential that the eventual 
hybrid force have the mandate and equipment necessary to protect 
civilians. The Sudanese Government now resists elements of the hybrid 
force related to the deployment of U.N. troops to Darfur. Consistent 
pressure on the Sudanese Government is necessary to compel Khartoum to 
accept such a force.
    The U.N. Department of Peacekeeping Operations must work in close 
coordination with the African Union to line up the forces necessary to 
reach the 20,300-troop level agreed upon by the African Union, the 
United Nations, the Arab League, and international donor countries. The 
international community must also accelerate its planning and increase 
its preparedness for military action without consent from Khartoum.
    The United Nations should also begin planning for deployment of 
peacekeepers to protect civilians and humanitarian operations in 
eastern Chad and northeastern CAR, but the deployment of protection 
forces should occur in conjunction with genuine political dialogue 
between the governments of these countries and their internal 
opposition groups. Concerted multilateral pressure is needed to 
convince Deby that a robust force is necessary to protect civilians. 
This force should be mandated to protect the camps and humanitarian 
convoys, and monitor and deter cross-border attacks and arms flows. 
This will require air capability (attack helicopters and aircraft) and 
satellite imagery. The French are well placed to help with such a 
mission, though they've been resistant thus far.
    The second benefit of such a force will be on the situation inside 
Darfur. A force in Chad should be linked to a Darfur mission. A U.N. 
presence in Chad and CAR was first authorized in U.N. Security 
Resolution 1706, and that link should remain. A large force in Chad can 
act as a deterrent to further forces in Darfur, and should operate as a 
partner force to African Union forces and the AU/U.N. hybrid force that 
is supposed to be deployed.
    The international community must also accelerate its planning and 
increase its preparedness for military action even in the absence of 
consent from Khartoum. If the situation continues to deteriorate in 
Darfur, the Security Council should authorize NATO to enforce a no-fly 
zone over Darfur and have plans in place to deploy ground forces to the 
region with a mandate to stop the killing. Although the international 
community's appetite for this type of military action is small, the 
Sudanese Government must understand that all options remain on the 
table. A credible planning process will in itself be a point of 
leverage in pressing primary objectives forward.
    Punishment: Specific to Darfur, immediate multilateral punitive 
action is needed to change the cost benefit analysis of the Sudanese 
Government.
    Until the international community rebuilds its leverage over the 
Sudanese Government by enacting punitive measures, both the government 
and the rebels will continue to fight it out in the sands of Darfur, 
while the Janjaweed and other armed groups continue to kill, rape, 
maim, and loot with impunity. The United States must back up its 
rhetoric by demonstrating leadership in forging multilateral consensus.
    First, the United States should lead the international community in 
imposing targeted sanctions through the United Nations Security Council 
against senior regime officials, as authorized in previous Security 
Council resolutions, and called for in multiple reports from the 
Council's Sanctions Committee Panel of Experts. Currently the United 
States and United Kingdom have different lists of officials that should 
be sanctioned. One list should be produced and broadened so that the 
Security Council can rapidly expand targeted sanctions to demonstrate 
international seriousness.
    Second, the United States should take the lead in passing a U.N. 
Security Council resolution establishing a Panel of Experts to quickly 
ascertain where the assets of the largest Sudanese companies owned by 
ruling party officials are located, and quickly move to freeze the 
assets of those companies, as well as build a coalition of states 
willing to impose measures that the United States is contemplating as 
part of its ``Plan B'' threats referenced above, and implement these 
measures multilaterally with as wide an international support base as 
possible. Ideally, these measures would be implemented through the U.N. 
Security Council.
    Third, the United States should work with its international 
partners to freeze the assets of the Government of Sudan and related 
commercial entities of the government--such as the main oil 
consortium--that pass through their banking systems. The U.S. 
Department of Treasury has compiled such a list, and the administration 
should work assiduously to ensure that these assets are frozen 
domestically and by our allies, which would require significant 
additional staff and resources.
    Fourth, the United States should work with other countries to 
develop a coalition that would notify international banking 
institutions that if they choose to continue conducting business with 
the Government of Sudan or companies affiliated with the ruling party, 
by a predetermined date, they will be cut off from the financial 
systems of participating countries. The United States has recently 
imposed similar unilateral measures on banks doing business with the 
regimes in North Korea and Iran, and they have had a direct impact.
    Finally, the United States and other concerned nations should 
provide information and declassified intelligence to the International 
Criminal Court to expedite arrest warrants for the principal architects 
of the Sudanese Government's scorched-earth campaign against its own 
citizens.
    Hundreds of thousands of lives in the subregion hang in the 
balance. If the United States leads multilateral efforts to address 
this regional contagion, whose primary root is in the Presidential 
Palace in Khartoum, then the escalating crisis can be reversed. But 
such a forward leaning, robust, proactive policy will require 
significant congressional pressure and advocacy and continuing citizen 
activism. Without these critical ingredients, I fear the drift in the 
Bush administration's engagement will continue, with hope and 
rhetorical demands being the main instruments of a failing policy.

    Senator Feingold. Thank you, Mr. Prendergast. As I 
suspected, this was a very good panel, which is precisely why I 
wanted to hold this hearing--so people could hear what these 
experts have to say.
    In a minute I'd like to start asking you some questions, 
but I'm just delighted that Senator Obama has joined us. He had 
been very active on this subcommittee, and I'd ask him if he 
has any remarks he'd like to make.
    Senator Obama. I just want to thank both of you for the 
good work that you are doing on this issue. I had the 
opportunity to visit one of the refugee camps in Chad after the 
Sudanese Government had been reluctant to give me a visa last 
summer. You know, I think at this point anybody who is paying 
attention recognizes the urgency of the situation, Mr. 
Chairman, and the question is: What forceful actions are we 
willing to take?
    I have said publicly, and I'll repeat, that the 
administration has actually been better on this issue than some 
other countries, including the Europeans, but that's a very low 
bar. And I think it's unfortunate that we have used so much 
political capital in other areas of the world, that it seems as 
if we don't have the time to stick with this issue, and we have 
very little leverage internationally to mount the kinds of 
efforts that are needed.
    Nevertheless, I'd like to see us make additional efforts. I 
hope that this committee becomes activated around this issue 
during the course of this year, and I'm looking forward to 
additional guidance from this panel in terms of how we should 
proceed.
    Senator Feingold. Thank you, Senator. Yes; the efforts in 
the last few years have been many. But I would like to 
acknowledge that Senator Obama's activity on the Darfur crisis, 
both on the committee and publicly, has really helped keep a 
focus on this issue, and I appreciate that.
    Mr. Bacon, we have all seen horrifying images of the 
refugee and IDP camps in Darfur, so I was a little surprised to 
hear you say that the nutritional condition of camp residents 
is often better than the population as a whole, although I did 
hear that concern raised when I was at the refugee camp in 
January 2005. We didn't just visit the camp, we went and 
visited a townhall down the road, and there was a little bit of 
concern about that.
    Could you compare the living standards of residents in the 
refugee and IDP camps in Chad and the CAR to those in Sudan, as 
well as to the general population?
    Mr. Bacon. Sure. Starting with Darfur, the only advantage 
of moving 2 million people into camps--or close to that number, 
because not all of the internally displaced live in camps--but 
moving people into huge camps, the largest one has 135,000 
people in it, is that it's easy to mobilize humanitarian 
response and get food and medical care there and focus it. And 
that's, in fact, what has happened in Darfur.
    But I want to stress again what John Prendergast said. This 
is very fragile now. It's increasingly fragile, the 
humanitarian lifeline in Darfur, and we could see a tragedy of 
unprecedented proportions if the humanitarian lifeline stops. 
If the World Food Programme can't get food in, if humanitarian 
workers pull out because it's too unsafe, we could start seeing 
tens of thousands of people starve in relatively small amounts 
of time. Because the aid has been focused in the camps, the 
mortality rate has fallen quite dramatically. It's lower than 
it is for the population as a whole now in Darfur.
    In Chad, it took a while for the United Nations to build up 
its humanitarian response in the camps, but as you pointed out 
and I think Mr. Swan also pointed out, the humanitarian 
conditions have improved in Chad in the camps in recent times. 
But there is still this growing number of internally displaced 
people, and one of the things my colleagues found over the last 
couple of weeks is that humanitarian response has been really 
light, inexcusably light, in eastern Chad.
    In fact, there was a reluctance to begin a significant 
humanitarian response for fear that it would attract more 
displaced people. Now I think the United Nations has gotten 
over that, and they have begun to orchestrate more of a 
response, but they need better management there than they have.
    And in the CAR it's not an emergency yet. There has been a 
lot of displacement and it's increasing dramatically. It could 
become an emergency but it isn't yet, and there isn't the type 
of starvation that we saw several years ago in Darfur, so there 
is time to work there, and I think time to respond to the 
problems.
    Senator Feingold. And on your third point, that the 
humanitarian response to these three conflicts has been uneven, 
have the Governments of Chad and the Central African Republic 
appealed for more humanitarian assistance? What steps have they 
taken to facilitate humanitarian access and ensure the security 
of aid workers in those two places?
    Mr. Bacon. Well, Chad has actually made some contribution 
of $8 million itself recently, which doesn't sound like a lot 
of money, but is money to help the 120,000 displaced people in 
the eastern area. So Chad is responding, and yes; they have 
been appealing for more funds, Chad and the CAR.
    The Government of Sudan makes episodic responses to help 
the internally displaced, but I don't think they are living up 
to what President Bashir said on the ``Today Show'' today. You 
were probably as stunned as I was, that he said he felt every 
death personally. He hasn't been acting that way, so there's a 
lot more that the government could do in Darfur to protect its 
own people.
    Senator Feingold. Thank you.
    Mr. Prendergast, could you summarize the interests of 
Libya, France, China, and other countries that are key players 
in the region, and discuss how they are contributing to the 
resolution of these conflicts, and what more could they do?
    Mr. Prendergast. Thanks very much. If I can parenthetically 
begin by just addressing something that Senator Obama said in 
his introduction about leverage, he's absolutely right, we've 
lost so much internationally, but we still have all this 
potential leverage with the Sudanese Government, and it's the 
scarlet letter and the wallet.
    Imagine the incredible leverage we would have if all of the 
intelligence that we have collected over the last 4 years about 
who has been responsible at the highest levels of the Sudanese 
Government for authorizing the atrocities that have been 
committed in Darfur, that are being discussed in The Hague, if 
we brought portfolios to the senior officials in Khartoum in 
question and said, ``It's your choice. We turn these things in, 
we declassify and turn these things in, and you're going to be 
hunted for the rest of your life. Yes; we won't catch you right 
away. There aren't enforcement mechanisms for the ICC. But if 
you want to live the rest of your life like Milosevic and some 
of these other guys in the former Yugoslavia, running and 
hiding, or in a hole like Saddam Hussein, if your government 
ever changes power, it's your choice. We've got the information 
here. Do you want to play ball or not?'' That's the scarlet 
letter.
    And the wallet, if we furiously worked with our allies to 
go after the assets, these guys have made so much money over 
the last decade since the advent of oil exploitation in 
Southern Sudan, and they have put money into companies that are 
invested all over Europe, the Middle East, and Asia. Of course 
they're not in the United States because the Clinton and now 
the Bush administration have restricted bilateral trade. So we 
have enormous leverage if we choose to build it and use it, and 
we're not doing that, and that's what I think is at the crux of 
what I would say.
    On the question of the three countries you mentioned, 
Libya, regional influence is its objective. It has always been 
an influence peddler, and it switches sides so often, its 
schizophrenic regional policy undermines its credibility. Of 
course they can bring people together. Of course people will 
show up for meetings because they pay them to come. They 
provide money and arms. ``If you come and show up, we'll have 
these wonderful meetings, press and photo opportunities.''
    People agree to all kinds of wonderful things about 
stopping cross-border insurgencies and support for 
insurgencies, et cetera, et cetera. Not one iota of 
implementation ever, have we ever seen, so it's almost a 
nonfactor. They can throw a little gasoline on the fire in 
occasional places by throwing arms into the mix, but they then 
change sides, so it's neutralized.
    France supports Deby and Bozize, as we know, very well, not 
only just economic aid, not only military, but military action 
through the provision of intelligence and actual military 
support on the ground when rebels in both countries were 
advancing last year. So they're willing to do what it takes to 
protect the two regimes in their two client states there in 
central Africa, but they're very divided about what to do about 
Darfur. France is all over the place. One day they're 
supporting the ICC resolution in the Security Council. The next 
day they're obstructing further measures. They have, of course, 
fairly significant economic interests in Southern Sudan, and 
that complicates their policy.
    They are doing nothing to address the internal political 
problems in CAR and Chad, and I think you were asking Mr. Swan, 
you know, what are we going to do? Who is the key external 
actor? It's France. We've got to be working very closely with 
them at the highest level of government, not at these working 
levels. It doesn't mean anything to them.
    OK; and on China, of course, that's the big elephant in the 
living room. Now a small factor, a new factor, has crept into 
the picture. They have invested now in Chad's oil sector, so 
they have a new reason to want better relations between Chad 
and Sudan so they can exploit this oil, so they will be a 
partner with us in support for that kind of reduction in cross-
border tensions. We need to use that. Again, high level 
engagement is going to be key.
    But to expect them to ever be a positive player in Sudan 
with the depth of their commercial relationship, it is almost 
an ideal scenario right now for China. They have a 
dictatorship, basically a commercial partner in Sudan that's 
willing to maintain that exploitation of resources by any means 
necessary, including genocide in the west and ethnic cleansing 
in the south, and that's a pretty good deal for them right now. 
That pretty much assures that they will get that oil for now, 
and so they're not going to be a positive player. We just have 
to engage them heavily to neutralize their being a negative 
actor on the scene, particularly in the Security Council.
    Senator Feingold. Thank you very much.
    Senator Obama.
    Senator Obama. In terms of us applying leverage, there was 
a Washington Post article that appeared in February, in which 
the Bush administration leaked to the media that they were 
going to implement a plan for the Treasury Department to 
aggressively block U.S. commercial bank transactions connected 
to the Government of Sudan, including oil revenues. According 
to the press, this plan was supposed to start in the first of 
January. We're in April. We haven't seen any movement.
    Do people have any comments about the potential 
effectiveness of the so-called plan B approach? Is it your 
estimation that a legislative approach should be tried?
    Mr. Prendergast. I think the Post leak was overstated. I 
think there was a bit of bluff involved. You know, you use 
these kind of tools in foreign policy to try to influence your 
adversary across the table. They were trying to do that with 
the Sudanese.
    It seems not to have yet been decided to undertake as 
robust an effort as was described in that Post article. They 
have decided on expanding targeted sanctions against certain 
companies, but the way it was described in the Post goes beyond 
what was decided, I think, by the Principals Committee and by 
the President.
    Now, if they did what they said in that article, I think it 
would have an impact, but it would have to be very clearly tied 
to a series of actions. In other words, this wouldn't be the 
one-time thing. Plan B wouldn't be, ``Here's our one thing 
we're going to do, and that's it.'' Because the Sudanese can 
weather this one. I mean, they can find alternative uses for 
their money and stuff like that, and ways of undertaking their 
commercial transactions. There has to be a series of actions 
that brings to bear pressure and, probably more importantly, we 
have to work multilaterally.
    Up until now, much of what the United States has done has 
been internal, within the Government, while we determine what 
unilateral measures we're going to take. And as you know, 
around the world this kind of unilateral push just leaves us 
open to a number of negative repercussions and doesn't have the 
full effect that if we work together, either through the 
Security Council or with a group of allies and interested 
countries, we could have much more influence.
    So I think plan B has a tremendous potential because it 
would shift, possibly, a move of our policy from constructive 
engagement, which simply has failed in the last 4 years in 
Darfur, to one of harder, pressure-based strategy that looks to 
try to influence the calculations of the government through 
punitive measures. That's the right direction we need to go. 
It's just that we have got to have enough sticks in that basket 
for the Sudanese to take us seriously enough to change their 
calculations and thus their behavior.
    Mr. Bacon. If I could just add two things, first of all, no 
one has done more work on this than John Prendergast in the 
International Crisis Group and his colleagues there, in sort of 
examining the mix of financial and other sanctions that could 
hurt the government. And the point he made about releasing 
intelligence is a very profound point. I think it would have a 
huge impact on the government.
    But, second, your committee might ask in another hearing 
for government officials to come up and talk about what 
financial options are available. For example, we've seen in the 
last several months that the application of section 311 under 
the U.S. Patriot Act has had a big impact on North Korea. For 
years we have thought North Korea was impervious to this type 
of pressure, but, in fact, the financial pressure put on 
through the banking system had a relatively rapid impact on the 
North Korean regime.
    Could that section be applied to Sudan? It's a money-
laundering section, but it has been interpreted very broadly 
and it has been used quite aggressively by our Treasury. So I 
would ask if maybe this committee would look into that and try 
to put a little pressure on the administration to look more 
imaginatively at the tools it already has at its disposal to 
put more pressure on Sudan.
    Senator Obama. Mr. Chairman, just a quick followup, if you 
don't mind.
    Obviously a lot of this has to do with how we can structure 
the application of any of these sticks in a way that's not 
deemed one more unilateral action by the United States. And so, 
you know, when I was referring to leverage earlier, the problem 
is that right now we've got a bad reputation around the world 
in terms of our capacity to pull together a multilateral 
effort.
    So I'm wondering, from your vantage point--you are both 
following the issue closely, you are, I'm sure, privy to 
conversations that are taking place in the United Nations and 
around the world--I'm wondering whether we have seen any 
improvement--progress--in terms of our potential European 
allies showing concern on this issue. Has the African Union 
been clear in terms of these concerns? We talked about Libya, 
but I guess I'm also interested in sort of more broadly Arab 
nations.
    The question I have is: Setting China aside, what capacity 
do we have at this point to actually forge an international 
coalition that would leave China isolated and force them to 
take action or support action? Or is this predominantly a 
phenomenon that's of interest to the grassroots and some 
legislators in the United States? It's getting a little bit of 
attention in Europe, not much elsewhere, and so it's hard to 
muster the kind of international coalition that might be 
necessary for punitive actions to be effective.
    Mr. Prendergast. I would just say, Senator, that the United 
Nations Security Council is the key. The Brits are going to 
table a resolution that will put forward a few of these 
financial measures. I believe, and I think many of us in the 
activist community believe and the NGO community believe that 
they could do a lot more in that first resolution that signals 
the break from constructive engagement to more punitive 
measures.
    The French will probably go along. They have indicated 
pretty much that they don't want to act through the EU but they 
will act through the Security Council. And I believe China and 
Russia, when you play chicken with them on this issue, they 
will ride off the road. They don't want to be isolated.
    They don't want to, particularly China does not want to use 
its veto. Unless we're talking about an embargo of Port Sudan 
or something that directly attacks their economic--their vital 
economic interests--they will abstain, and they have 
demonstrated that when the referral of the case of Darfur to 
the ICC, when the Sudanese Government was sure that Beijing was 
going to veto, and they stepped aside and said, ``We just don't 
want to stand up on behalf of this regime in that way.''
    The EU is totally divided. Many of the countries in the EU, 
in their lowest common denominator foreign policy, have 
deferred to the diplomatic effort and said, ``We've just got to 
give it more time.'' Particularly the Secretary General of the 
United Nations has said the same thing, unfortunately.
    The AU, I wouldn't rely on the AU to take the lead on this 
kind of thing because they have put the soldiers on the line 
and they are undertaking, they are effectively in the lead on 
the diplomatic track. We're not going to see them, I think, 
take the aggressive track that needs to give leverage to the 
peace and protection initiatives.
    So the engine really is right here in Washington. If the 
United States decides, ``Let's push forward, let's work as 
multilaterally as possible, but push forward through the United 
Nations Security Council,'' I think we can create a set of 
punitive measures that will influence the Government of Sudan 
in its calculations and to change its policy in Darfur.
    Senator Feingold. Thank you, Senator Obama.
    Mr. Bacon, thank you for raising the point about the 
measure that was effective vis-a-vis North Korea. I think 
there's some talk about this among some Senators, but I think 
your push on that may be helpful at a critical time.
    Again, thank you. Let me just ask one more question; I want 
to get this on the record. The resolution that Senator Sununu 
and I introduced last month calls for the appointment of a U.N. 
regional envoy, as you heard, charged with overseeing and 
coordinating humanitarian access and assistance in Darfur, 
eastern Chad, and northern CAR. Could each of you offer your 
opinion of this proposition?
    Mr. Bacon.
    Mr. Bacon. I think that would be a step up. I would, to the 
extent possible, expand this mandate to include political 
negotiations working toward a peace agreement. There is now a 
U.N. deployment--diplomatic deployment in the CAR, trying to 
work toward a peace negotiation. I don't think it has had much 
success yet, but there is much more that we can do there. And 
by combining it with humanitarian assistance, I think it gives 
it more clout.
    Senator Feingold. Very good. Mr. Prendergast.
    Mr. Prendergast. Thanks. I agree, it has got to be expanded 
to peacemaking. Having just the humanitarian brief is not 
enough. There has to be a division of labor, then, if we're 
going to press for that, and I think you should, between 
current Special Envoy Natsios and the new person, so one is 
focused like a laser beam on a peace deal for Darfur and the 
other looks at the wider regional dimensions.
    And again it's an argument for a regional cell. We need 
more diplomats out there. In this transformational diplomacy or 
whatever we want to call it, we've got to have more people in 
the region working these cases full time. We can't have part-
time professors going out when they can, when their schedule 
permits. We've got to have full-time people, professionals who 
work this account 24/7, because the Sudanese are working it 24/
7 to destabilize the region.
    Thanks.
    Senator Feingold. Thank you. That's exactly the note I 
wanted to end this hearing on. I thank both of you and all our 
witnesses, and that concludes the hearing.
    [Whereupon, at 11:23 a.m., the subcommittee was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Deputy Assistant Secretary James Swan to Questions 
                 Submitted by Senator Richard G. Lugar

    Question. A nearly $1 billion windfall will come to the Chadian 
Government from oil sector tax revenues this year, in addition to 
normal oil royalty payments (estimated at $254 million for 2007).

  <bullet> What is being done to ensure these funds are not used to 
        fuel the growing conflict in eastern Chad/Darfur, or to 
        increase arms purchases and Chadian military spending above 
        their current levels?
  <bullet> What mechanisms are in place to track arms traffic in Chad, 
        the Central African Republic and Sudan?
  <bullet> Are there any measures being taken to monitor the 
        relationship between the precipitous growth in Chad's budget 
        (due to oil production) and arms sales to/flows into Chad?

    Answer. Years of civil and external conflict have led to the 
proliferation of traffic in small arms across Chad, Central African 
Republic (CAR), and Sudan. Many organizations, including the United 
Nations and the African Union, attempt to assess small arms and light 
weapons flows in this region of Africa. Our embassies in the region 
also report on observable trends. The illicit nature of this traffic 
makes it difficult to track with precision.
    The U.S. Department of State through the Office of Weapons Removal 
and Abatement (WRA) has been engaged in Sudan with Small Arms and Light 
Weapons
(SA/LW) destruction to eliminate illicit SA/LW from circulation. Since 
FY05, the State Department through WRA has funded the destruction of at 
least 21,959 weapons at a cost of $1,900,000.
    The United States (through WRA) has begun a dialogue with the 
Government of the Central African Republic with the goal of 
establishing a bilateral NADR-funded program to strengthen the 
governments physical security and stockpile management practices and to 
destroy any surplus and obsolete SA/LW.
    The United States supports World Bank and International Monetary 
Fund (IMF) efforts to ensure that Chad's increased oil revenues are 
focused on priority social sectors instead of on the military. This 
includes supporting the preparation of the Government's new Poverty 
Reduction Strategy Paper (PRSP), which will provide the framework for 
government spending over the next several years to promote broad-based 
growth and poverty reduction. The United States engages regularly with 
the Chadian Government to reinforce the message that Chad's oil 
revenues would best promote stability if used to address some of the 
long-term drivers of instability. We also engage with Chadian 
Government officials at all levels to urge them to cease any support of 
Sudanese rebel groups.

    Question. The influx of refugees from the Darfur region is placing 
pressure on social infrastructure and on local populations.

  <bullet> What are the nonsecurity priorities of the Chad Government 
        as exhibited by their expenditures?
  <bullet> Does the Chadian public budget reflect increased expenditure 
        on health and social services in the east and south of Chad?
  <bullet> Have any donors prioritized funds for Chadian communities 
        impacted by the growing crisis on the border?

    Answer. Under the 2006 Memorandum of Understanding between the 
Government of Chad and the World Bank, the Chadian Government pledged 
to spend 70 percent of its entire budget on health, education, rural 
development, and other social sector programming in fiscal year 2007. 
The government also pledged to pay particular attention to Chad's 
southern oil-producing region.
    While official data on Chad's spending has not yet been released, 
it appears that the Chadian Government will not meet its 70 percent 
target this year. Social sector spending, however, seems to have 
increased significantly since 2005. Anecdotal evidence suggests that 
much of this funding has been spent on infrastructure, health, and 
education.
    As a result of oil receipts, Chad's national budget has increased 
significantly from previous years. Consequently, there has been 
increased spending throughout the country. While Chad does not publish 
its budget annually, it is not clear whether there is greater emphasis 
on projects in the south and eastern regions. In January, the Chadian 
Government publicly committed to fund 44 percent of a joint urban 
development project with the World Bank. Of the five cities selected 
for the project (N'djamena, Abeche, Doba, Sarh, and Moundou), four are 
in the southern and eastern parts of the country. We continue to press 
for greater social investment throughout the country.
    Going forward, the Government, in consultation with civil society, 
the World Bank, the IMF and other development partners, is preparing a 
new Poverty Reduction Strategy Paper (PRSP) to promote broad-based 
growth, reduce poverty, and provide the framework for government 
spending over the next several years.
    Donor assistance for the eastern Chadian population is provided 
mostly through international and nongovernmental organizations (NGOs). 
Those segments of the population that are internally displaced receive 
humanitarian assistance from the International Committee of the Red 
Cross (ICRC), United Nations agencies, and NGOs. As in other parts of 
the world, the United Nations High Commissioner for Refugees (UNHCR) 
and its partner organizations provide assistance for host communities 
affected by the presence of refugees.
    In Chad, activities for host communities include projects to 
improve coordination, increase access to clean water, improve food 
security through agricultural support, and provide informal education 
and conflict resolution training through radio programming for Chadians 
and refugees. In addition to U.S. Government support for UNHCR and 
partner organizations ($43 million in FY06) in Chad, the United States, 
through the U.S. Agency for International Development (USAID) and the 
State Department, will provide food and nonfood assistance for 
internally displaced persons and for host communities. Other donors, 
including the European Community and the United Kingdom, have also 
provided funding specifically for affected Chadians.

    Question. What are the amounts of assistance provided to Chad, and 
to CAR, from the international community, broken out by country and 
international organization?

    Answer. According to the United Nations (U.N.), the Central African 
Republic (CAR) received $25 million in humanitarian assistance in 2006. 
The largest portion of this assistance, approximately $5.5 million, or 
21.3 percent, was granted by the United Nations Central Emergency 
Response Fund (CERF). Other U.N. funds contributed at least an 
additional 10 percent of the total. The United States was the largest 
bilateral donor, contributing approximately $3.6 million in 
humanitarian assistance, or 14.1 percent of the total. France 
contributed approximately $2.9 million dollars, while Japan, Ireland, 
and Sweden each contributed over $1 million dollars.
    In 2007, the international community has already pledged over $10 
million in humanitarian assistance to CAR. One-third of this assistance 
is funded by the CERF, while Ireland and the United States have each 
provided approximately one-fourth. We expect that funding levels will 
increase significantly throughout 2007. The United Nations has 
requested approximately $50 million in humanitarian funding in its 
Consolidated 2007 Appeal for CAR.
    The international community provided $186.77 million in 
humanitarian assistance to Chad in 2006. The United States was by far 
the largest donor, providing nearly $70 million, including $63.4 
million toward the U.N. appeal. The European Commission was the second 
largest donor, providing approximately $20 million, followed by the 
U.N., which provided $9.4 million through the CERF and $9.9 million via 
general accounts. Much of the assistance provided to Chad in 2006 was 
to support Sudanese and CAR refugees.
    The United Nations has requested $170 million in humanitarian 
funding in its Consolidated 2007 Appeal for Chad. Of this, almost $50 
million have been provided thus far. The United States continues to be 
the largest contributor of humanitarian funding, having provided $40 
million, including $30.1 million toward the appeal. The U.N. has 
contributed $7.3 million via the CERF mechanism.
    While statistics for overall development assistance (ODA) for 2006 
have not yet been released, statistics indicate that CAR received $95 
million in ODA in 2005. This assistance equaled approximately 7.1 
percent of CAR's gross national income (GNI). France was by far the 
largest contributor, providing approximately 40 percent of all 
assistance in 2004-05. The European Commission provided approximately 
22 percent during the same time period, while the United States 
provided approximately 14 percent.
    Chad received approximately $380 million in ODA in 2005. 2004-05 
averages indicate that the International Development Association of the 
World Bank provided approximately 23 percent of assistance, followed by 
the European Commission (20 percent), the United States (16 percent), 
and France (15 percent). Overall development assistance includes 
emergency assistance as well as debt relief and other forms of 
assistance.

    Question. What foreign assistance is intended to be provided to 
Chad, and to CAR, by the United States in FY 2007, broken out by 
purpose/category?

    Answer. While the nature of emergency humanitarian funding, which 
is the bulk of the funding that we provide to Chad and the Central 
African Republic (CAR), makes it difficult to predict precise funding 
levels, we expect that overall humanitarian assistance to both Chad and 
CAR will increase significantly from 2006 levels.
    In CAR, we anticipate providing the following assistance (all 
amounts in U.S. dollars):

  <bullet> Cancellation of bilateral debt with an approximate face 
        value of $3,600,000 and rescheduling of remaining $1,800,000 of 
        debt, in keeping with the terms of the multilateral agreement 
        CAR is expected to negotiate with the Paris Club in mid-April 
        2007. These estimates for fiscal year 2007 are based on the 
        initial debt treatment normally offered to countries advancing 
        toward full participation in the Enhanced Heavily Indebted Poor 
        Countries (HIPC) initiative;
  <bullet> $4,200,000 in Public Law 480 Title II (P.L. 480) emergency 
        food assistance;
  <bullet> $1,314,215 in International Disaster and Famine Assistance 
        (IDFA) funding for emergency supplies and nutrition and for 
        food security, water, and sanitation projects;
  <bullet> $500,000 in Economic Support Funds (ESF) for a pilot land 
        tenure project that will help to bring alluvial-mined diamonds 
        into the Kimberley Process chain of custody;
  <bullet> $500,000 in Development Assistance (DA) funding for 
        biodiversity/sustainable use projects as part of the Central 
        African Regional Program for the Environment;
  <bullet> $96,000 in International Military Education and Training 
        (IMET) for civil-military relations, human rights, and 
        professionalization training for members of the CAR military; 
        and
  <bullet> Unearmarked contributions to the International Committee of 
        the Red Cross (ICRC) and United Nations High Commissioner for 
        Refugees (UNHCR) for their Africa-wide budgets that are used to 
        assist conflict victims, refugees and internally displaced 
        persons (IDPs) in CAR, as well as to assist CAR refugees in 
        Chad and Cameroon.

    In Chad, we anticipate providing the following assistance:

  <bullet> $37,500,000 in Refugee and Migration Assistance (RMA) to 
        support refugees and IDPs;
  <bullet> $27,500,000 in Public Law 480 emergency food assistance 
        (including contributions to the World Food Program) for 
        refugees and IDPs;
  <bullet> $10,062,000 in Department of Defense Title 10 assistance to 
        support Operation Enduring Freedom--Trans Sahara (OEF-TS), the 
        military component of the Trans Sahara Counter-Terrorism 
        Partnership (TSCTP);
  <bullet> $5,000,000 in IDFA funding for relief commodities, food 
        security, protection, humanitarian coordination, water and 
        sanitation projects;
  <bullet> $1,802,000 in DA and ESF for development projects to support 
        TSCTP;
  <bullet> $1,798,000 in Public Law 480 Title II nonemergency food 
        assistance;
  <bullet> $595,000 in Nonproliferation, Antiterrorism, Demining and 
        Related Programs (NADR) assistance for antiterrorism training 
        as part of TSCTP;
  <bullet> $283,000 in IMET for civil-military relations, human rights, 
        and professionalization training;
  <bullet> $272,000 in Department of Defense European Command (EUCOM) 
        funding to support Exercise Related Construction (ERC);
  <bullet> $207,000 in Department of Defense HIV/AIDS Prevention 
        Program funding (DHAPP) for HIV/AIDS activities in Chad;
  <bullet> $200,000 in NADR for demining activities;
  <bullet> $179,000 in Department of Defense Humanitarian Assistance 
        (HA) activities; and
  <bullet> $121,000 in Department of Defense general operation funds 
        for the Counter-Terrorism Fellowship Program (CTFP).

    Question. France is a former colonial power and still occupies an 
important role in the region.

  <bullet> Characterize the French role in the region and specifically 
        in Chad and CAR. (A classified response is acceptable if 
        necessary.)
  <bullet> What are France's goals and how does it work to achieve 
        them?
  <bullet> How does the United States engage France in achieving its 
        objectives in the region?

    Answer. As the former regional colonial power, France has a unique 
relationship with both Chad and Central African Republic (CAR), as well 
as with most of their neighbors. French President Jacques Chirac has a 
close personal relationship with Chadian President Idriss Deby Itno. 
CAR President Francois Bozize also enjoys a good relationship with the 
French Government, likely developed while he lived in France in exile.
    In both Chad and CAR, France's primary goals are achieving domestic 
and regional stability. As part of the European Union, France is 
engaged in long-term civil reconstruction and democratic reform 
projects in both countries. These projects have been formulated to 
address long-term drivers of instability.
    France plays a significant role in the security sector in both Chad 
and CAR. There are approximately 1,200 French troops in Chad as part of 
Operation Epervier. The troops are stationed in Chad to protect French 
nationals and to provide logistical support to the Chadian forces. In 
Central African Republic, there are approximately 300 troops as part of 
Operation Boali, an operation charged with helping to restructure the 
local armed forces and supporting FOMUC, a regional peacekeeping force 
led by the Economic and Monetary Community of Central Africa (CEMAC) 
and funded by the European Union.
    The roles of the two forces are quite distinct. France and CAR have 
entered into a defense agreement that allows the French forces to 
provide operational assistance and air support in internal and external 
conflicts. French aircraft have directly engaged Central African rebels 
and have helped the Bozize government maintain its tenuous hold on the 
northeastern parts of the country, particularly those near the Sudan 
border.
    France's agreement with Chad, however, is a military cooperation 
agreement and only allows the French to provide logistical support to 
the Chadian Government.
    United States and French Governments discuss our initiatives in the 
region regularly in Washington, DC, and in Paris, as well as in Bangui, 
N'djamena, and at the United Nations. Our Ambassador in Chad and our 
Charge d'affaires in CAR both enjoy good relations with their 
counterparts. We have also supported many French initiatives vis-a-vis 
Chad and CAR in international fora.

    Question. The World Bank has had a significant impact on the 
prospects of Chad oil resource flows. What role does the World Bank 
play, and are they capable of being a positive influence, upon the Chad 
and CAR governments actions in the region?

    Answer. In January 2006, the Chadian Government changed the law 
governing use of oil revenues for priority social sectors in order to 
cover an increasing need for military expenditures. Because this action 
violated the 1999 agreement with the World Bank, the Bank suspended all 
loans to Chad in protest of the decision. The suspension and 
international pressure compelled the Government of Chad (GOC) to sign a 
July 2006 agreement with the World Bank in which the government agreed 
to spend 70 percent of its total budget, not just oil revenues, on 
priority sectors, such as health education, and infrastructure. While 
critics of the agreement note that it does not address the GOC's 
elimination of a future generations fund and that an increased portion 
of direct oil revenues could be used for military spending, proponents 
note that projected priority sector spending would increase. The 
agreement also signals that the World Bank can still be a positive 
influence in Chad. Although it does not appear as though the government 
will meet the 70-percent target outlined for this year, spending on 
priority poverty-reduction sectors has increased significantly since 
2005. The government has also made progress on strengthening public 
financial management, as also agreed with the World Bank.
    In Central African Republic (CAR), the World Bank and other 
international financial institutions have played a very positive role 
as the country attempts to undertake fiscal and monetary reforms. Prime 
Minister Elie Dote, himself a veteran of the African Development Bank, 
is implementing reforms of the customs service and has begun a campaign 
to eliminate ghost workers from the civil service.
    In addition to providing the impetus for fiscal reform, the World 
Bank can provide much-needed technical assistance to two countries 
where the financial management capacity is very low.

    Question. What has the United States done to consolidate the 
diplomatic effort in this region and through what organizations has the 
USG engaged to leverage its influence for positive effect?

    Answer. The United States has engaged on the issue of the regional 
impact of the Darfur crisis, particularly on Chad and the Central 
African Republic, at every level. In the field, our missions enjoy good 
working relationships with their bilateral and multilateral colleagues 
and participate in donor meetings where they impress upon both 
governments the importance of democratic reforms and respect for human 
rights to address the long-term drivers of the conflict.
    In New York, we have worked with other United Nations (U.N.) 
Security Council members and with U.N. officials to ensure that the 
regional impact of the Darfur crisis is part of the international 
agenda. As a result, U.N. Security Council Resolution (UNSCR) 1706 
instructed the U.N. to address regional security issues, particularly 
in Chad and the Central African Republic. We also expect these issues 
to be addressed in the context of the deployment of a U.N.-African 
Union hybrid force in Darfur. Moreover, we have pressed for the 
deployment of a separate peacekeeping mission in Chad and CAR. We 
regularly consult with our international partners on the deployment of 
such a mission.
    Finally, the United States continues to support the mandates of the 
U.N. Peacebuilding Office in the Central African Republic (BONUCA) and 
of FOMUC, the regional peacekeeping force of the Central African 
Monetary and Economic Community. Both organizations have contributed to 
security in CAR.

                                  <all>

</pre></body></html>
